<html>
<title> - BUS RAPID TRANSIT AND OTHER BUS SERVICE INNOVATIONS</title>
<body><pre>[Senate Hearing 108-465]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-465


                         BUS RAPID TRANSIT AND
                     OTHER BUS SERVICE INNOVATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

          THE REAUTHORIZATION OF THE TRANSPORTATION EQUITY ACT
                          OF THE 21ST CENTURY

                               __________

                             JUNE 24, 2003

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


93-986              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  RICHARD C. SHELBY, Alabama, Chairman

ROBERT F. BENNETT, Utah              PAUL S. SARBANES, Maryland
WAYNE ALLARD, Colorado               CHRISTOPHER J. DODD, Connecticut
MICHAEL B. ENZI, Wyoming             TIM JOHNSON, South Dakota
CHUCK HAGEL, Nebraska                JACK REED, Rhode Island
RICK SANTORUM, Pennsylvania          CHARLES E. SCHUMER, New York
JIM BUNNING, Kentucky                EVAN BAYH, Indiana
MIKE CRAPO, Idaho                    ZELL MILLER, Georgia
JOHN E. SUNUNU, New Hampshire        THOMAS R. CARPER, Delaware
ELIZABETH DOLE, North Carolina       DEBBIE STABENOW, Michigan
LINCOLN D. CHAFEE, Rhode Island      JON S. CORZINE, New Jersey

             Kathleen L. Casey, Staff Director and Counsel

     Steven B. Harris, Democratic Staff Director and Chief Counsel

                  Sherry Little, Legislative Assistant

                   Sarah A. Kline, Democratic Counsel

                  Aaron D. Klein, Democratic Economist

   Joseph R. Kolinski, Chief Clerk and Computer Systems Administrator

                       George E. Whittle, Editor

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                         TUESDAY, JUNE 24, 2003

                                                                   Page

Opening statement of Chairman Shelby.............................     1

Opening statements, comments, or prepared statements of:
    Senator Reed.................................................     2
    Senator Stabenow.............................................     3
        Prepared statement.......................................    35
    Senator Sarbanes.............................................     4
    Senator Miller...............................................     4
    Senator Allard...............................................    11
        Prepared statement.......................................    35
    Senator Carper...............................................    24
    Senator Dole.................................................    36

                               WITNESSES

Jennifer L. Dorn, Administrator, Federal Transit Administration, 
  U.S. Department of Transportation..............................     5
    Prepared statement...........................................    36
JayEtta Hecker, Director, Physical Infrastructure Issues, U.S. 
  General Accounting Office......................................    15
    Prepared statement...........................................    42
    Response to written questions of Senator Sarbanes............    78
Gary L. Brosch, Chairman, National Bus Rapid Transit Institute, 
  Center for Urban Transit Research, University of South Florida 
  and the University of California, Berkeley.....................    18
    Prepared statement...........................................    59
Kenneth P. Hamm, General Manager, Lane Transit District, Eugene, 
  Oregon.........................................................    19
    Prepared statement...........................................    61
    Response to written questions of Senator Sarbanes............    81
Oscar Edmundo Diaz, Enrique Penalosa's Assistant at New York 
  University, Administrative Director at the Institute for 
  Transportation and Development Policy..........................    21
    Prepared statement...........................................    63
    Response to written questions of Senator Sarbanes............    83
Anne Canby, President, Surface Transportation Policy Project.....    23
    Prepared statement...........................................    74
    Response to written questions of Senator Sarbanes............    85

              Additional Material Supplied for the Record

Testimony of the Roaring Fork Transportation Authority...........    87

                                 (iii)

 
          BUS RAPID TRANSIT AND OTHER BUS SERVICE INNOVATIONS

                              ----------                              


                         TUESDAY, JUNE 24, 2003

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.

    The Committee met at 10:03 a.m. in room SD-538 of the 
Dirksen Senate Office Building, Senator Richard C. Shelby 
(Chairman of the Committee) presiding.

        OPENING STATEMENT OF CHAIRMAN RICHARD C. SHELBY

    Chairman Shelby. The hearing will come to order.
    I am very pleased this morning to convene on a topic that 
is a high priority for the Banking Committee this year: The 
reauthorization of the Transportation Equity Act of the 21st 
Century, what we call TEA-21. TEA-21 expires on September 30, 
2003, and Senator Sarbanes and I have been actively preparing 
for the revision of this legislation.
    On March 13, the Committee heard from the Federal Transit
Administrator, Jennifer Dorn, on her Agency's fiscal year 2004 
budget priorities. Embedded in that proposal were several 
ground-breaking initiatives which I thought had potential, like 
the changes suggested to foster programs like Bus Rapid 
Transit, and some initiatives, like eliminating the bus 
discretionary program and also lowering the Federal match for 
New Starts projects, that I have concerns about.
    Today, we are here to learn from the Administrator and the 
distinguished panel of witnesses that will follow about Bus 
Rapid Transit and other bus service innovations. Bus Rapid 
Transit, or BRT, is a new technology that was not around during 
the writing of TEA-21, and evidence exists that many 
communities around the country are now giving it serious 
consideration. In fact, when I asked that Members formally make 
requests to the Committee of projects in their State that they 
wished to have authorized, almost 50 communities in 22 States 
submitted requests for authorization for BRT or enhanced bus 
programs. The total amount requested for this technology hovers 
at about $5 billion. This certainly demon-
strates the level of interest for BRT and bus improvements.
    In response to this heightened level of interest in 1999, 
the Federal Transit Administration created a special program 
within the Agency's research office to study BRT, and I have 
asked the Administrator to share insights from that experience 
with us today.
    We have also assembled a panel who each have varied 
experience with this new technology and have recommendations 
for reauthorization. The GAO has already done a study called 
``Bus Rapid Transit Shows Progress.'' The National Bus Rapid 
Transit Institute, part of the University of South Florida's 
Center for Urban Transit Research, also has a representative 
here. We have two real-life examples of BRT projects: The first 
in Eugene, Oregon, that, while still in the development stage, 
shows promise; and a second example that has been implemented 
with great acclaim in Colombia, South America. Finally, a 
representative of the Surface Transportation Policy Project is 
also joining us this afternoon to talk about bus service 
improvements generally and how transit decisions contribute to 
land use and community development.
    One final note. While I certainly believe that BRT is a 
viable option worthy of consideration in communities where it 
makes sense, I believe that at the Federal level, on this 
Committee and within the Department of Transportation, we 
should remain mode-neutral. No one knows better about what will 
work in a particular community than those that are living and 
working in those communities. While BRT has been touted as a 
potential replacement for the more capital-intensive light 
rail, I feel it best for communities to make that determination 
at the local level.
    For some communities, light rail is a more appropriate 
choice based on ridership potential, density, and cost 
considerations. One thing we want to make sure of in 
reauthorization is that we have a program which gives local 
communities maximum flexibility to choose the right project 
based on their needs.
    With that, I will ask for other opening statements and then 
let the Administrator proceed with her testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing on Bus Rapid Transit. It is always 
good to see the Administrator here.
    I want to commend you for this hearing and your focus on 
reauthorization of the TEA-21. I also want to associate myself 
with your comments about the flexibility and the local 
discretion that is so important and such a hallmark of ISTEA 
and TEA-21. And I also believe, as you do, that we cannot have 
a one-size-fits-all Federal prescription for transportation, 
and that the local needs of communities have to be addressed 
and they are best addressed by local decisionmakers.
    The only other footnote I might add is that I also would 
hope that we would not use Bus Rapid Transit as a way to deny 
appropriate resources for capital-intensive programs. BRT 
should not be used as a budget device. It should be used as a 
way to meet the local needs of communities which feel that Bus 
Rapid Transit is their preferred mode of mass transit.
    Let me thank the Chairman for his strong support of my 
State in terms of the bus discretionary program over the last 
few years. I represent a State which has a statewide bus 
system, no light rail, no subways, and we find it extremely 
useful and effective. Rhode Island is not like other places. 
So, again, I go back to the point the Chairman made that we 
have to have this local flexibility.
    As we go forward, we are going to look at many different 
aspects of transportation and mass transit, and we come back, I 
think, to the point that has been made by the Chairman and 
myself. We have to maintain flexibility and local discretion. 
We do not want to stack the deck against one mode of 
transportation or for one mode of transportation. We really 
have to recognize that the resources must be there for the 
program.
    I thank the Chairman and yield back my time.
    Chairman Shelby. Senator Stabenow.

              STATEMENT OF SENATOR DEBBIE STABENOW

    Senator Stabenow. Thank you, Mr. Chairman, and good 
morning. And thank you for this very important hearing and 
welcome.
    I, like my friend from Rhode Island, come from a State 
where we do not have subway systems. We are focused very much 
on buses in every one of our 83 counties. That is an incredibly 
important way in which Michigan's citizens move through public 
transportation, the bus system. So as we talk about transit, it 
is very important to me, representing Michigan, that we are not 
just focusing on rail or subway systems.
    We are interested in Michigan in adding to our light-rail 
systems, but what we are talking about today is very important 
in terms of innovations in bus transit. I think that is 
something that has a tremendous impact in Michigan.
    This is of great concern to so many people in Michigan who 
are attempting to get to work every morning at great odds. 
Yesterday morning, I heard a piece on National Public Radio 
about low-wage workers, and one person that was featured was a 
Detroiter, Marzs Mata, who works for Comcast Customer Service 
in one of Detroit's suburbs. She commutes by bus from downtown 
Detroit, and it takes her 5 hours a day to go to work and to 
come back. And this is obviously a grave hardship to her and 
yet as a person who wants to work and earn a living, this is 
what she is required to do. So issues related to buses and 
innovation regarding bus systems are very important in 
Michigan.
    I would just say, Mr. Chairman, I would appreciate putting 
my entire statement in the record.
    Chairman Shelby. Without objection, it is so ordered.
    Senator Stabenow. Thank you. I just want to emphasize one 
more time that Michigan currently ranks last in Federal transit 
funding among the Great Lakes States. We are receiving 
approximately 43 cents on the dollar, even though our citizens 
are paying a tremendously high proportion in terms of local 
taxes to support public transportation because it is so 
important to the quality of life to people in Michigan.
    So, I am anxious to have the opportunity to continue to 
work with the Committee and create a way that would be more 
fair for my State and other States that have needs, that do not 
have extensive subways, and are not heavily financing light 
rail but have tremendous public transportation needs 
predominantly through buses and have the great need that our 
citizens are asking us to address.
    Thank you, Mr. Chairman.
    Chairman Shelby. Senator Sarbanes.

             STATEMENT OF SENATOR PAUL S. SARBANES

    Senator Sarbanes. Thank you very much, Mr. Chairman, for 
holding this important hearing. This opportunity to examine the 
state of bus service in this country and ways of improving and 
enhancing it is extremely important. Buses, after all, 
according to APTA, provide 60 percent of the more than 9 
billion trips taken on public transportation each year. There 
are more than 2,200 transit agencies in the country providing 
bus service.
    Obviously, we are not reaching our full potential on bus 
service, and as we shall shortly hear from our witnesses, 
communities around the country are improving their bus service 
in a variety of ways. The new technology that made it possible 
for transit agencies to provide real-time information to 
waiting passengers about the expected arrival time of their 
next bus--that, of course, does not take care of the problem of 
getting the bus there. It just tells them when it is coming. 
These technologies also enabled transit managers to track the 
exact location of buses to respond more quickly to problems, 
for getting the buses that are operating cleanly and quietly 
with low emission or zero emission fuels. This, of course, 
brings down the pollutants emitted by transit vehicles. To the 
extent we can increase transit ridership, get fewer cars on the 
road, we address both the pollution problem and the congestion 
problem.
    There are a number of innovations underway. Traffic signal 
preemption improves bus speed and reliability, limiting the 
number of stops which cost you on convenience but you gain it 
on time, utilizing new fare collection techniques. There are a 
number of things that are being tried--and I know we are going 
to hear about them in the course of the testimony this 
morning--that could significantly improve bus service in 
America.
    The other focus we have today is, of course, the emerging 
technology of Bus Rapid Transit. There are a number of 
questions that I think we need to look at: How effective is BRT 
in cases where you do not have a dedicated right-of-way? What 
kind of impact can these projects have on local land use and 
economic development? Do we have enough experience with this 
technology to accurately predict ridership and cost figures for 
these projects? And I think we need to examine this very 
carefully as we consider this proposal.
    Mr. Chairman, obviously one of the things that would 
contribute tremendously to improved transportation is just to 
significantly raise the level of service with respect to bus 
transport. And that is something we need to develop as we move 
ahead with the reauthorization this year.
    Thank you very much.
    Chairman Shelby. Senator Miller.

                STATEMENT OF SENATOR ZELL MILLER

    Senator Miller. Thank you, Mr. Chairman, and thank you for 
holding this very important hearing and giving us an 
opportunity to focus on the possibilities and promise of Bus 
Rapid Transit.
    It was a year ago tomorrow that I participated in the 
Housing and Transportation Subcommittee hearing regarding the 
positive impact of transit on the environment and on the 
economy. I bring that up because in that hearing, one of 
Georgia's corporate citizens, Bell South, testified how they 
maximized land use to locate nearly 10,000 employees by 
building new office buildings over or near MARTA rail transit 
stations. This is the type of cooperation between private 
entities, the local community, the workforce, and the State and 
Federal Government that helps reduce commute times, congestion, 
and the negative impact of car emissions. So, I am interested 
in how Bus Rapid Transit will be able to achieve these goals 
while maximizing land-use possibilities.
    I look forward to Administrator Dorn's testimony regarding 
any efforts to facilitate cooperation between the Federal 
Transit Administration and the Federal Highway Administration 
that can help State DOT's implement Bus Rapid Transit, with HOV 
lanes and dedicated fixed guideways. Additionally, I would like 
to hear the Administration's views on a clear definition of Bus 
Rapid Transit and its eligibility for New Starts funding. Will 
it be defined broad enough to encourage BRT development where 
feasible, but narrow enough not to substantially diminish the 
positive impact of the New Starts program?
    I welcome both these panels and thank you for being with 
us.
    Chairman Shelby. Ms. Dorn, your written statement will be 
made part of the record in its entirety. You proceed as you 
wish. We welcome you again to the Committee.

                 STATEMENT OF JENNIFER L. DORN

         ADMINISTRATOR, FEDERAL TRANSIT ADMINISTRATION

               U.S. DEPARTMENT OF TRANSPORTATION

    Administrator Dorn. Thank you, Mr. Chairman, and it indeed 
is a pleasure to be here today to testify about Bus Rapid 
Transit, as well as significant bus improvements. I am 
confident that both will make an inroad in increasing ridership 
on public transportation throughout the country. I would like 
to associate my own remarks with the remarks of all of the 
distinguished panel members with respect to Bus Rapid Transit. 
I think that we are on the same page with respect to maximum 
local flexibility. This Administration shares that philosophy. 
This is not a trick to try to drive a local decision toward one 
mode or another. FTA's philosophy in its proposal on 
reauthorization is surely to enable communities to take 
advantage of a full panoply of options and to allow them to 
make the decision. You are right, Mr. Chairman. Those decisions 
are best yielded to the local level.
    I would like to make several summary points, if I may, 
about the exciting success of Bus Rapid Transit and what it 
means for increasing ridership and community benefits in cities 
today. And I would also like to clearly state what the 
Administration intends and what it does not intend through its 
reauthorization proposal.
    The proposal, part of which we are discussing today, 
permits nonfixed guideway and other new lower-cost, nonfixed 
guideway technologies like Bus Rapid Transit to receive New 
Starts funding. Others will testify today about how BRT in 
certain corridors has significantly increased ridership, has 
dramatically reduced travel times, and in most cases at a 
fraction of the cost of light rail. Advanced technologies, as 
many have spoken to, have made this possible. FTA joins GAO and 
a number of expert transportation organizations in some 50 
communities in 22 States, as you mentioned, in recognizing the 
importance of maximizing the potential of these technologies, 
where appropriate, in order to achieve all the important 
benefits of public transportation in communities.
    First of all, a word about defining Bus Rapid Transit. I 
think it is very, very important to note, from our perspective, 
Bus Rapid Transit is not a predetermined set of physical 
characteristics. Fundamentally, BRT is a service. It is 
performance-based, with the defining characteristic as speed 
and travel-time savings. BRT utilizes a combination of advanced 
technologies, infrastructure, and/or operational investments to 
achieve speed and travel-time savings. And it provides 
significantly better service than traditional bus service: 
Faster operating speeds, greater service reliability and 
frequency, and increasing convenience, often matching the 
quality of rail service in appropriate applications.
    In other words, BRT as a performance-based service can 
include a whole spectrum of choices, a combination of 
improvements that can be used to achieve these results, from 
improved passenger facilities to improved vehicles to improved 
service. And we can get into that more fully in the question 
period, as you see fit.
    I would like to make a couple of important points with 
respect to our reauthorization proposal.
    First, our goal is not to convince, to compel, to force, as 
some might fear, every community to choose BRT. Far from that. 
BRT does not make sense for every corridor or community, just 
as light rail does not make sense in every community. FTA has 
been and will continue to be supportive with this proposal that 
we need to be mode-neutral, as the Chairman noted.
    The type of investment is a local decision, and FTA's role 
is to ensure that the project meets the statutory criteria for 
mobility, for cost-effectiveness, and for other important 
measures.
    Given the remarkable success, however, of current BRT 
projects, we do hope that every community considers BRT, as 
well as other emerging transportation technologies, in the 
beginning stages as they investigate cost-effective 
transportation solutions in travel corridors. We will, of 
course, continue our aggressive education and technical 
assistance efforts to promote such consideration by transit 
agencies and communities.
    We believe that by making nonfixed guideway major capital 
investments eligible for New Starts funding, we will simply 
create a level playing field in the decisionmaking process 
locally. It will permit each community to choose the project 
that best meets its transportation needs, regardless of whether 
it utilizes a fixed guideway.
    Right now, project sponsors need to follow the money, and 
the money is limited to fixed guideway projects, even though 
the success of BRT is not. We have a number of BRT projects 
utilizing fixed guideway that would compete successfully under 
the New Starts criteria, and we want to continue those types of 
projects.
    Even with its potentially lower cost, we understand that 
BRT will not be the right transportation solution for every 
community, as I mentioned. Cost alone is not a determining 
factor in the New Starts program.
    In evaluating New Starts projects, we look at cost-
effectiveness, that is, whether the costs are in line with the 
benefits achieved. Considerations like population density, the 
existence of exclusive rights-of-way, centralized employment 
centers, and the impact of topography on system design and 
construction costs may make light rail, for example, more cost-
effectiveness than BRT in a particular community or corridor.
    A second important point, we do not intend to change the 
philosophy or the intent of the New Starts program. This 
Administration continues to support a New Starts program that 
provides Federal funds for corridor-based capital investment 
projects that fully meet all of the evaluation criteria 
established in law.
    In contrast to formula programs, New Start monies are 
intended to target problem corridors or areas where significant 
focused investments are required to solve problems. We simply 
want to
ensure that communities are able to consider the full range of 
the potential solutions and make common-sense decisions about 
what best meets their needs.
    I know that some have expressed the view that we need a 
precise definition of BRT in order to distinguish it from 
simple improvements of existing bus systems that should be 
funded under formula programs. I urge Congress and this 
Committee to resist doing so in statute. The performance-based 
criteria which Congress has defined for us in statute will 
naturally weed out projects that provide, for example, so-
called random bus improvements.
    In order to pass the New Starts test, BRT, like any other 
mode choice, will have to provide significant, distinguishable 
service improvements along a transportation corridor. That 
cannot happen without an integrated, systemwide set of service 
enhancements incorporated in a plan in the local level. BRT 
provides a menu of options, and that is the key--a menu of 
options. We are fortunate to have so many advances in 
technology as to be able to pick from Column A and Column B to 
solve Problem C.
    In our current process for fixed guideway projects, for 
example, we do not dictate the alignment, whether fixed 
guideway systems should be grade-separated or not. We do not 
dictate the distance between stations or whether fixed guideway 
systems should be electric or diesel locomotive driven. We do 
not say that it needs to be a commuter rail, a light rail, a 
heavy rail, or a ferry. We say that it must produce significant 
results and be on a fixed guideway. What we are saying is that 
fixed guideway is no longer the only defining characteristic 
that ensures significant public transportation benefits.
    We do not want artificial constraints on the performance 
that might be achieved by mandating a particular combination of 
Bus Rapid Transit features. The definition of what kind of 
project can be funded in New Starts should be as flexible as 
possible, as long as the proposed project achieves significant 
mobility improvements in a cost-effective manner. This is 
particularly true with the rapid pace of technology 
improvements. Next year, it may not be BRT, it may be another 
technology improvement.
    I would also note that the FTA supports the continued 
application of the current New Starts requirement that every 
New Starts project be incorporated into the regional 
transportation plan. This will ensure that cohesive capital 
improvement projects which address transportation problems in a 
defined corridor can be distinguished from a random array of 
bus service improvements. Those are more appropriately funded 
under the formula program.
    Finally, Mr. Chairman--and thank you for bearing with me--I 
want to assure the Committee that it is not our intent to use 
the proposed changes in the New Starts program to divert funds 
away or toward any particular size or type of community. Some 
high-density urban communities that were previously unable to 
consider a fixed guideway system simply because they could not 
secure an exclusive right-of-way will now be able to consider 
comprehensive corridor improvements that do not require a fixed 
guideway. Some medium-sized, fast-growing communities that 
might not have been able to justify the high cost of a fixed 
guideway system may find that the transportation benefits do 
justify the cost of a nonfixed guideway investment. And some 
large communities may find that they prefer a lower-cost, 
nonfixed guideway alternative even if they could justify a 
higher rail system.
    We may see an increase in the number of communities seeking 
New Starts projects, but we are also likely to see a decline in 
the average total cost of those projects once nonfixed guideway 
projects are permitted. I believe that the Administration's 
proposed 55 percent increase in New Starts funding under 
SAFETEA will permit us to expand the program to include 
meritorious nonfixed guideway projects even in the face of 
increased demand.
    Thank you, Mr. Chairman.
    Chairman Shelby. Thank you very much for your testimony.
    Your SAFETEA proposal includes a provision--you alluded to 
it a minute ago--to accommodate BRT in the New Starts program 
by eliminating the requirement that projects include separate 
fixed guideways. It seems to me that one of the central 
reauthorization questions, Administrator Dorn, is whether this 
is necessary to accommodate BRT within the current program 
structure. In other words, will opening up New Starts to 
nonfixed guideway projects dilute the program, particularly 
where there are so many projects already competing for New 
Starts funding? Would it be better, in other words, to fund 
such projects from the bus program?
    Administrator Dorn. That is a very important question, and 
we believe strongly that we do not want to dilute the purpose, 
the scope, the philosophy of the New Starts criteria. Whereas, 
formula programs are targeted toward general improvements, 
general system improvements, the philosophy of New Starts, as I 
understand it, was to target a specific problematic corridor or 
area that requires a significant investment in order to make 
distinguishable, significant improvements in service. We 
believe that the cost-effectiveness criteria that has been 
imposed, thankfully, by statute will weed out other less 
systematic investments that could produce less beneficial 
results. So, we have little fear about the dilution. We feel 
that the trade-off--a community making a decision that they 
need to go immediately to light rail, or they cannot afford 
light rail, but they are going to put it through anyway because 
that is where the money is--that is a significant impediment to 
good, cost-effective solutions.
    Chairman Shelby. And a mistake.
    Administrator Dorn. Yes.
    Chairman Shelby. While there have been some improvements in 
the reliability of the estimates of the cost and ridership in 
New Starts projects, a lot of us are very concerned that we are 
still seeing projects with costs that exceed estimates and 
ridership that falls short.
    First, what can we do, Administrator Dorn, to make sure 
that we are getting reliable estimates of the project costs 
and, second, the ridership that would come after the project is 
completed? Sometimes that is faulty, as you well know.
    Administrator Dorn. Yes, Mr. Chairman. It is always 
imperative that we remain vigilant with our partners at the 
State and the local level to ensure that we are as accurate in 
our projections for both ridership and cost as is possible. 
Both the science of ridership projection and our experience 
have allowed us to improve significantly our record in that 
regard. And I would say that the vast majority of projects 
certainly currently in the construction phase have met the cost 
and budget outlines and many have exceeded the ridership 
projections. So we are getting better and better.
    Because some of the projects were early on built under 
ISTEA with not as much experience as we have now--and those 
projects require years in the pipeline--we are seeing some 
lingering effects. But I think we are improving dramatically, 
and I am proud of our record. We can always be better, but I 
believe we are making significant improvements.
    Chairman Shelby. The Bush Administration has proposed a 
change in the New Starts program which would subject smaller 
projects, those with a Federal share of under $75 million, to 
simplified criteria. While streamlining the process--I think 
that is what you are getting at--for smaller projects might 
make sense in some instances, some of us are concerned that it 
is appropriate to make sure that all of our investments are 
justified. The draft bill does not provide any details on how 
this would work. Could you provide us more detail on what the 
criteria would be for New Starts projects with a Federal share 
proposed under $75 million?
    Administrator Dorn. A very important question, and the most 
important point, I think, is if it is the Congress' desire to 
accept this proposal for a simplified process for New Starts 
investments under $75 million, we would undertake a full public 
discussion with our stakeholders as to how to do this well.
    But a couple of points. First, we think it is very 
important that we identify simpler measures for the project 
evaluation criteria, but stick with the same measures cost-
effectiveness, et cetera. But there are ways that we can 
simplify those measures for smaller projects.
    Second, we believe that we can streamline the project 
delivery mechanism so that it takes less time. Often projects 
that are under the $75 million level tend to be an indication 
that they are relatively small or uncomplicated or with less 
risk. So, I feel that we can very responsibly simplify and 
carefully simplify, and I also think it can ensure that we do 
not have an intimidation factor, particularly to smaller 
communities that have sometimes resisted or tried to get under 
the cap so they would not have to go through the process.
    We think there is a very important benefit, as you have 
stated, that all projects that seek New Starts funding be 
subject to the rating criteria. We think these are very good, 
and help ensure that every investment we make is worth making.
    Chairman Shelby. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    I think, Administrator, you have put your finger on one of 
the big issues, and that is the definition. And you have 
indicated that you want a performance-based definition: Speed, 
travel time, and savings. How specific are you going to be or 
should we be in terms of the performance criteria? Significant? 
Substantial? What do you mean by that?
    Administrator Dorn. I think we would use the same standard 
of cost-effectiveness measure, mobility improvements, land-use 
improvements. The same standard that we use for all projects 
under the New Starts criteria would be consistent for BRT. In 
other words, we do not, in some respects--I do not mean to be 
flip, but we do not care how they get the benefits as long as 
it is within the law. But if those cost-effective measures can 
be met, then to define specifically how they get there, whether 
they use an automated vehicle locator system or low-floor buses 
or whatever, we do not care. They need to be able to have the 
flexibility to choose, as they do now in fixed guideway. We do 
not prescribe what the station should look like, how far 
between they should be, et cetera. We just want to say at the 
end of the day you can prove that the costs are in line with 
the benefits achieved.
    Senator Reed. Is there consideration about emissions and 
environmental policy in your criteria?
    Administrator Dorn. The effect on the environment is one of 
the standards in the criteria that we use. We are trying to 
improve that measurement. It is not a fail-safe, quantifiable 
measure, and we need to make some improvements in that.
    And the other measure we are really seeking to make some 
improvements on is how we can measure the economic development 
impact of an investment. And here, as Senator Miller pointed 
out as well, there can be Bus Rapid Transit investments that 
can dramatically improve economic development potential. It 
does not have to be fixed guideway.
    There are a couple of areas that we want to work with our 
stakeholders on to be able to make the case even stronger, and 
hopefully we can influence the local community to concentrate 
more on public transportation in their decisionmaking.
    Senator Reed. What is prompting this new legislative 
proposal? What are the obstacles preventing a system from 
getting a Bus Rapid Transit system that you want to correct?
    Administrator Dorn. Currently, unless the project utilizes 
a fixed guideway, they have to use only formula funds. This 
prevents communities from carefully considering whether or not 
they could have a Bus Rapid Transit system, as many systems 
locally have already done, without a fixed guideway and still 
achieve the benefits. So, we want to level the playing field. 
We think no longer is the fixed guideway the determinant, the 
sole determinant of public transportation success.
    Senator Reed. Well, I think one of the problems you 
inherently have in trying to build in these flexibility and 
performance criteria is that, frankly, a system could propose 
simply that they would like money for HOV lanes, which they 
would claim is BRT--but looks a lot like a proposal that should 
be funded elsewhere.
    How are you going to make the determination that this is a 
systemic--approach that is going to facilitate the maximum 
possible rapid transit and not simply a convenient way to do 
something that you could do otherwise?
    Administrator Dorn. Very good question, and we would, of 
course, become slightly more proscriptive after we have the 
public input process because there are things we need to learn 
about that. Should there be a floor, the minimum level of 
riders that would have to be impacted? That is the first point.
    The second point is that it would be very unlikely that 
taking a single or even a couple or three interventions or 
measures would yield the significant increases in ridership and 
service that would meet the test of the New Starts criteria. An 
HOV lane on its own certainly, without a whole host of other 
menu options, is very unlikely to meet the test. And we will 
work carefully with our stakeholders, as we have done in 
fleshing out the New Starts criteria that the Congress gave to 
us years ago. We think that is the right way to go.
    Senator Reed. Let me ask a final and I think related 
question. How do you guard against the piecemeal approach where 
there is a grandiose plan but up front they just do HOV, they 
just do something else, and then either you cannot fund it or 
they choose not to follow through?
    Administrator Dorn. Typically, that kind of piecemeal 
approach is at the local option using formula funds. Unless we 
can establish that they are solving a significant problem on a 
holistic basis in a corridor that has a significant problem, it 
will not meet the criteria.
    Senator Reed. Thank you.
    Chairman Shelby. Senator Allard.

                COMMENTS OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, thank you. I apologize for 
not being here for opening statements. I do have an opening 
statement and I would like to make it a part of the record.
    Chairman Shelby. Well, it will be made part of the record 
without objection.
    Senator Allard. I would like to follow up on some of your 
questioning, Mr. Chairman.
    On the New Starts process, I would like to have you 
elaborate a little bit further about what it entails. Is it a 
two-tier process? Here are some of the questions I have: Would 
a $10 million project receive less scrutiny than a $40 million 
project? Would the $40
million project receive less scrutiny than a $70 million 
project, for example?
    Administrator Dorn. Good questions. With respect, Senator, 
to the New Starts criteria, it is multidimensional, and to 
describe it adequately would take more time and expertise than 
I have. But, in general terms----
    Senator Allard. Ms. Dorn, we will take a written response 
for the record.
    Administrator Dorn. Oh, that would be terrific. Okay.
    Senator Allard. Right, Mr. Chairman?
    Chairman Shelby. Absolutely.
    Administrator Dorn. I would like to make a couple of 
points.
    Senator Allard. I think we need to make it a part of the 
record, if you would.
    Administrator Dorn. Okay, great. Just very simply, the 
project justification and the financial plan are the two big 
issues that we look at. And then I will be happy to provide 
more of the details.
    With respect to your question about the scrutiny of $10 
million, $20, $30, $40, the reason that the Administration has 
proposed to simplify the process for New Starts investments at 
$75 million and under is because, very typically, those 
projects are less complicated, involve less risk, and we 
believe there are ways we can expedite the process and the 
evaluation. We want to find the fine line between being 
customer-responsive and also meeting our fiduciary
responsibility. We believe that that threshold is a reasonable 
threshold for which we would apply a simplified criteria.
    Senator Allard. I was referring to projects under $75 
million, but let's go to the $75 million threshold. I would 
expect that some communities might game this a little bit. They 
might have a project that is going to cost more than $75 
million, so they may bring the costs down, or underestimate 
certain aspects of the project in order to have less rules and 
regulations.
    Now, I do not know whether that is a problem or not. It 
might be a good thing because it brings about efficiency. On 
the other hand, it might mean we get obligations and they are 
not able to complete the project as planned. And then you do 
not have the money there to have an operating system that would 
measure up to expectations. Would you address that a little bit 
for us?
    Administrator Dorn. Certainly. Senator, we would view it 
advantageous to have some flexibility. To pick a certain number 
is always somewhat risky because you can game the system. And 
in some cases that is what has happened with having the 
exemption, which is in current law, of $25 million and under. 
We have had a number of projects that are $24.999 million; then 
they get into actually moving forward with the project, and 
they discover it is a $75 million project. Then they have to 
come back through the evaluation process.
    So, we have some concern about that, but in talking with 
our stakeholders and reviewing this issue, we think $75 million 
in New Starts contributions is about the right level. We would 
like to have some--and we will work with the grantees for 
flexibility.
    If we discover that there is a risk component that suggests 
that we need to expand the otherwise streamlined approach, we 
will do that. We will not back off from making wise choices 
about ensuring that the investment is going be something we are 
proud of at the end of the day.
    Senator Allard. I want to move on to the BRT at this time. 
Are you visualizing the BRT as a harbinger, or intermediate 
step in moving to rail?
    Administrator Dorn. In some cases, it may well be an 
incremental step. In other cases, it may be wholly sufficient 
unto itself for the next period of time. That is why we do not 
want to mandate or have a separate pot of money. We want the 
local flexibility.
    In a business analysis that all of the local communities 
should be making, that will emerge. The right project with the 
right fit will emerge.
    Senator Allard. I understand that, and I think you are 
going the right way.
    Now what about making this apply to rural areas? Talk about 
the BRT programs that apply just to rural areas which do not 
plan on going to the intermediate--thinking in terms of an 
intermediate step, they are just interested in a bus transit 
system.
    Administrator Dorn. Well, I think the greater impact on a 
rural area would be that the benefits we have already begun to 
see in terms of advanced technologies could be utilized in 
enhancing bus. So it may not be that it would happen very often 
that there would be a New Starts BRT proposal that would be 
cost-effective under the New Starts program.
    Senator Allard. For rural areas?
    Administrator Dorn. For rural areas. I am sorry. That is 
the reason that the Administration has proposed a significant 
increase in the rural formula, because we recognize the needs, 
and we would believe that those increased formula funds, could 
be utilized to fund those kinds of investments.
    Senator Allard. I see that balance. Thank you.
    Administrator Dorn. Thanks.
    Chairman Shelby. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman.
    Thank you, Administrator Dorn, for your comments. Speaking 
again from a State that does not have subway or rail of any 
significance at all, the New Starts flexibility that you are 
talking about is very appealing to provide options for States 
like Michigan to be able to look at the very best way to be 
able to move people efficiently, cost-effectively, and so on. 
And we have seen a number of studies looking at options in 
Michigan, where we do not have infrastructure for rail, where 
they are seriously at the local level looking at BRT 
approaches.
    Given Michigan and others who have very small return on our 
transit dollars, do you see the New Starts expansion of 
flexibility that you are talking about as a way to address 
States like ours to give us the opportunity to be able to bring 
more investment into our States?
    Administrator Dorn. Absolutely, Senator. We believe that 
some of those mid-sized and even smaller cities that do not 
have the potential benefits to justify the cost of a light-rail 
system or a trolley or even a streetcar may see the wisdom of 
making effective BRT choices that would increase public 
transportation. So, we think it is a window of opportunity, 
but, again, the criteria is universal that you could have a $4 
million Federal share project that has incredible benefits, and 
it would apply to a mid-sized or a smaller city, and it could 
compete as well or better than a larger project that costs 20 
times more and does not have as many benefits. So it is 
neutral.
    There is also a recognition that the New Starts program is 
a national program, and there is an understanding on the part 
of the stakeholders and Congress that, as such, we need to 
share the wealth, so to speak. There has been expressed a fear, 
well, perhaps L.A. would identify, for example, 40 terrific Bus 
Rapid Transit corridors that would meet cost-effectiveness 
tests and hog all the money from the New Starts program.
    I think that there is a strong recognition this is a 
national program and that there is an understanding that 
locally there have to be priorities chosen to present to the 
Congress, so that there is only one or at the most two projects 
in any one area at one time.
    I think that some of these concerns are rooted in the fact 
that we are making a change rather than in the reality of the 
potential.
    Senator Stabenow. Well, I certainly look forward to working 
with you on that. In Detroit, which is not a small community at 
all, does not have a subway in Detroit.
    Administrator Dorn. Right.
    Senator Stabenow. We do not have rail in Detroit. So it 
becomes even more significant in large urban areas as well that 
do not have these options.
    I am wondering on a local level, a local question. We have 
a new airport we are very proud of just outside of Detroit.
    Administrator Dorn. A great airport, yes.
    Senator Stabenow. It is terrific, a tremendous investment 
and economic development opportunities there. But there is 
tremendous congestion on the highways between the airport and 
downtown, and there have been a number of proposals about how 
to better connect people, how to deal with the congestion, a 
wide variety of issues. And we are very serious about wanting 
to bring light rail or some piece, whether it is BRT or light 
rail, to that area. We have had various proposals directly 
related to the airport to downtown that are being proposed and 
submitted. Have you had any opportunity to look at those?
    Administrator Dorn. I know that our staff has provided 
technical assistance to the transit agency and the local 
planners to try to come up with ideas that will help meet the 
statutory criteria. So, we have continued to work with them. We 
have not been presented formally, I do not believe, any 
proposal. But we are eager to continue that work.
    Senator Stabenow. Great. Well, it is an important area and 
an important need, and I look forward to working with you.
    Administrator Dorn. Thank you.
    Chairman Shelby. Senator Miller.
    Senator Miller. You have answered, and answered very well, 
most of the questions that I had, and I thank you. Is there a 
particular ridership BRT is targeting? I ask that because 
around Atlanta, we cannot get people out of their cars and onto 
the buses. If we build this system, will they come?
    Administrator Dorn. Very good question, and there are 
experts on the following panel that would be able to address 
that better than myself. What we have found is that if the 
service is fast, reliable, convenient, they will come. That is 
what has been so terrific the successful models of some of 
these Bus Rapid Transit systems.
    The people that would not have otherwise ever gotten out of 
their cars, they say, ``Why would I not?'' When the headways 
between bus stops are 3 to 5 minutes and it is reliable, they 
utilize the technologies. It is going to change the face, I am 
convinced, of public transportation if we do this right.
    Senator Miller. Thank you.
    Administrator Dorn. Thank you.
    Chairman Shelby. Administrator Dorn, we appreciate you 
appearing with us today.
    Administrator Dorn. Thank you very much, Mr. Chairman.
    Chairman Shelby. We appreciate your candor and look forward 
to working with you.
    Administrator Dorn. Thanks a lot.
    Chairman Shelby. Thank you very much.
    On our second panel, we have five witnesses, each with a 
unique perspective on this new technology. I want to welcome 
them this morning and thank them for their willingness to come 
before the Committee today.
    We have Ms. JayEtta Hecker with the General Accounting 
Office; Mr. Gary Brosch with the Bus Rapid Transit Institute; 
Mr. Ken Hamm, General Manager of Lane Transit District in 
Eugene, Oregon; Mr. Oscar Edmundo Diaz, Chief of Staff for 
former Bogota, Colombia, Mayor Penalosa; and Ms. Anne Canby 
with the Surface Transportation Policy Project.
    We welcome all of our panelists today. Your written 
testimony will be made part of the record in its entirety, and 
we ask each of you to sum up your testimony as quickly as 
possible to give us a chance to have a dialogue with you.
    Ms. Hecker, you may begin.

                  STATEMENT OF JAYETTA HECKER

            DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES

                 U.S. GENERAL ACCOUNTING OFFICE

    Ms. Hecker. Thank you, Mr. Chairman. I am very pleased to 
be here before you and other distinguished Members of the 
Committee to discuss BRT. Our work is based on a comprehensive 
review, as you mentioned, of BRT and also significant work that 
we have done through the years for this Committee, including a 
report issued yesterday on the New Starts program. So, we have 
a body of work that we have been doing for you to base our 
remarks.
    Buses, of course, are really the backbone of the transit 
system in the United States. As you estimated, nearly 60 
percent of all transit rides are actually on buses; so it is a 
very significant dimension of the system. Also, BRT is really 
gaining the attention of communities for the potential to 
improve substantially the speed, reliability, and quality of 
this bus service over conventional service.
    Chairman Shelby. Would you take a second and just explain 
why it is getting the attention? Because of new technology in 
moving the bus or----
    Ms. Hecker. Well, that is actually the first area that I 
want to cover. I have basically three areas, the 
characteristics of Bus Rapid Transit----
    Chairman Shelby. I will let you do it. I will back off for 
now.
    Ms. Hecker. I am going to answer your question right away. 
I am just giving you the context of the three areas I will 
cover.
    Senator Sarbanes. While the Chairman is doing that, when 
you do the characteristics, do you intend to, in effect, lay 
out for us what you mean by Bus Rapid Transit?
    Ms. Hecker. Yes, precisely.
    Chairman Shelby. That is a good point.
    Ms. Hecker. I will cover the characteristics, the way the 
Federal Government currently provides support, and finally, the 
factors communities use in deciding whether BRT is an 
appropriate option.
    I have a chart as do a lot of other panelists. Mine has 
some uniqueness because we have an overview of the diversity of 
different types of transit systems.
    This first chart you see basically shows you different ways 
that busways are created. This is already the part that is 
covered, the fixed guideway. They can be tunnels. They can be 
at grade. They can be elevated. They can be isolated in 
different kinds of ways. So, the first characteristic or type 
is a dedicated busway.
    Another type is HOV lanes, where they operate together with 
other types of vehicles, although it is a limited access road.
    And the third type operates on arterial roads. It is, in 
our view, definitely a type of Bus Rapid Transit. It is not a 
dedicated road, but it definitely improves the system 
performance and substantially improves a number of 
characteristics. This is the model you have seen in Los 
Angeles. It is also part of the new Silver Line System in 
Boston. There are ways to achieve, by almost anyone's 
definition, a substantial improvement in the reliability, the 
speed, the performance, and the ridership attractability, even 
though it is not a dedicated right-of-way.
    Chairman Shelby. Why? Explain why, how it works.
    Ms. Hecker. It is made more attractive. It has efficiencies 
in terms of use. There may be signal priorities that are going 
to help it move. There may be improved buses that speed entry 
so that it is more like a train. The entrance can actually be 
at the same level to help people with carriages and other 
things. It is very easy. There may be more doors to enter, so 
that you are achieving faster throughput. So, there is a whole 
collection of characteristics, none of which are in any given 
project, but you have this ease of boarding, ease of fare 
collection, often off the bus. You have more limited stops. You 
have improved stations.
    A lot of these are made to improve the attractiveness, and 
they have successfully generated new traffic from former nonbus 
riders.
    Senator Sarbanes. How do you encompass that under the label 
``Bus Rapid Transit''? I mean, I think all those things are 
good. That is just a way of improving in a sense existing bus 
service. But how do you get that into the concept of Bus Rapid 
Transit?
    Ms. Hecker. Well, I think Ms. Dorn's characterization of 
substantial improvements, not just general improvements but 
kind of an order of magnitude of improvements, that require in 
many cases some substantial capital investment. So it is not 
just a new bus, it is not just signal priority, but it is 
leading in some cases to 30 to 50 percent improvement in the 
speed and reliability and the ability to attract a whole new 
set of clientele.
    Chairman Shelby. Ms. Hecker, if you have a signal priority, 
some sensor on the bus working the signals or whatever, and you 
have an HOV lane or a bus lane, that is going to move traffic. 
I mean, just getting on the bus, that might be comfortable, but 
people like to go from Point A to Point B, don't they, as 
quickly as they can, unimpeded? So the question is if you can 
keep the buses from getting bogged down in the traffic that we 
run in every day, that is what I was getting at. If you are 
going to call it Bus Rapid Transit, is it really that? Or is it 
just an incremental improvement?
    Ms. Hecker. Well, I think that is precisely what the New 
Starts evaluation process would provide. A comprehensive set of 
indicators is built into the system.
    Chairman Shelby. Okay.
    Ms. Hecker. A quick review of the nature of Federal 
support, the New Starts program. There is only one BRT system 
currently in operation that has a grant agreement. That is in 
Boston. That is out of 26 that have agreements.
    On the other hand, there are six projects in earlier stages 
of development out of 200 New Starts projects. So it is not a 
big universe right now. Part of that, of course, is the fact 
that there is this restriction on the fixed guideway. But it is 
also that there is tremendous competition, as you know, for New 
Starts.
    The other categories--and there are projects that have used 
them--are the urban formula grants and the bus discretionary 
programs. These tend to be smaller, also very competitive. They 
are not the major kind of capital improvements that you see in 
the New Starts program. In addition, projects can use both STP 
and CMAQ funds.
    Something unique that I might bring to the table is a new 
innovation really on the wings of what they call HOT lanes, or 
high-occupancy toll lanes. This involves converting 
underutilized HOV lanes around the country, and combining that 
with cross-subsidy investments from the tolls in these new 
lanes, new improved lanes, and subsidizing Bus Rapid Transit. 
This is already the case in the San Diego region. There are a 
number of projects in this area around the country. What is 
interesting about that, is that is it is really multimodal. It 
is improving the commute and the efficiency on the highway. It 
is generating revenue, and it is cross-subsidizing and at the 
same time improving the transit options and providing revenue 
for that.
    The BRT demonstration project is not a source of funding 
for a project. It has basically been a good opportunity for 
exchange of information. So there have been limited resources 
available.
    One of the factors that communities consider is cost. Our 
report talked about the fact that very often Bus Rapid Transit 
had a lower cost than light rail, but not necessarily. It is a 
function of the nature of the right-of-way, whether they are 
purchasing a right-of-way, whether it includes a tunnel. So it 
is not an absolute that there is always going to be a cost 
advantage, and that is why it is wise that there is no mandate, 
but it is a tool that belongs in consideration. Performance is 
another key factor as is flexibility.
    The bottom line that we have is that BRT is a viable 
option. It has worked in many regions, a number in this country 
but more significantly around the world. It belongs on the 
table, and there is merit in not having it be disadvantaged in 
the criteria. Federal policy, I would agree with you, should be 
mode-neutral, and I would be happy to take any questions.
    Chairman Shelby. Thank you.
    Mr. Brosch.

                  STATEMENT OF GARY L. BROSCH

         CHAIRMAN, NATIONAL BUS RAPID TRANSIT INSTITUTE

               CENTER FOR URBAN TRANSIT RESEARCH

              UNIVERSITY OF SOUTH FLORIDA AND THE

             INSTITUTE OF TRANSPORTATION STUDIES AT

             THE UNIVERSITY OF CALIFORNIA, BERKELEY

    Mr. Brosch. Good morning, Mr. Chairman and Members of the 
Committee. I am here today as Chairman of the National Bus 
Rapid Transit Institute, a collaborative effort at the 
University of South Florida and the University of California, 
Berkeley. With me today are Dennis Hinebaugh, our Director, and 
Senior Researcher Michael Baltes. The National Bus Rapid 
Transit Institute was established in 2001. We are proud to be a 
pioneer in this area. We have current activities doing 
evaluation of BRT projects, developing the peer-to-peer 
technology transfer program. We publish the BRT Quarterly, and 
we have the nbrti.org website. I encourage you to visit it.

    Let me tell you a few lessons we have learned about BRT. 
The first, of course, is the difficulty in developing consensus 
on the definition of BRT. We agree that a flexible definition 
is what is most important to allow the communities to define 
the systems that work best in that community, not necessarily 
those that would just qualify for Federal funding.

    Another lessons we have learned is that auto dominated Los 
Angeles has debunked the old myth that people will ride trains 
but not buses. That was based on a paradigm of trains being 
clean and fast and buses being dirty and slow. BRT has changed 
that paradigm. Fast, frequent, convenient service is what is 
key.

    A surprising and important lesson we have learned is that 
nontransit users like BRT. They like it because it is perceived 
as cost-effective and highly utilized. Their tax dollars are 
being used
wisely. They are getting 80 percent of the benefits of light 
rail, only 20 percent of the cost. It takes the support of 
these nonusers----

    Chairman Shelby. Say that again?

    Mr. Brosch. They get 80 percent of the benefits of light-
rail systems at only 20 percent of the cost or, as the GAO 
report has shown, sometimes even less.

    We have also found around the world, and we are starting to 
find in the United States that BRT does have an effect on land 
use, just like light rail does. It takes the support of these 
nontransit users, as well as the users to get local funding 
commitments that make BRT such winning opportunities for 
communities.

    To tell you a little bit about the future role of BRT, you 
know, certainly from the creation of the interstate system, the 
current TEA-21, Congress has had a great deal to do with 
shaping our transportation future. And we think the potential 
of BRT is so compelling that it deserves the serious 
consideration you are giving it.

    A couple of things you could do. Certainly in the area of 
research and technical assistance, market research, we need a 
lot more. There is peer-to-peer assistance. We need to do more 
in debunking that current myth that only light rail can affect 
land use.

    The evaluation of systems. Make no mistake. We love BRT 
systems, but we want it to be tough love and look only at those 
that are cost-effective.
    We also think that the current consortium member program 
should be expanded. There are more cities that would like to 
join those 19 that are currently receiving funding.
    And, of course, the big dog, the method of Federal funding, 
how do you do it? You have talked about several different 
types. I encourage you to look at the strengths and weaknesses 
of each opportunity, avoid some unintended consequences of the 
selected option. If you include BRT in the bus program, you 
might use up the funds that are needed for routine replacement. 
If you put it in the New Starts program as currently proposed, 
the devil is going to be in the details that you are asking, 
the details of what are the evaluation criteria, how do we 
ensure cost-effectiveness, how do we ensure they are neither 
too big nor too small. How do we do that?
    In conclusion, we think BRT is an idea whose time has come. 
We encourage the Members of this Committee to continue to exert 
the leadership that Congress does in shaping our transportation 
system. We want to support local decisions, help the locals 
understand the tremendous advantages they can achieve through 
BRT. We want to roll up our sleeves and help you, Mr. Chairman 
and Members of the Committee, and we thank you very much for 
allowing us to present.

    Chairman Shelby. Mr. Hamm.

                  STATEMENT OF KENNETH P. HAMM

             GENERAL MANAGER, LANE TRANSIT DISTRICT

                         EUGENE, OREGON

    Mr. Hamm. Thank you, Mr. Chairman, for the opportunity to 
come before the Committee today and share a little bit of 
Eugene, Oregon, and the Lane Transit District's Bus Rapid 
Transit project with you.
    The Lane Transit District, for those that do not know, is 
serving the Eugene-Springfield area. The urban area's 
population is about 230,000, located about 110 miles south of 
Portland. It is the home of the University of Oregon and what 
we call the Mighty Ducks.
    Alternative modes of transportation are popular there, and 
Lane Transit District carries about 6 million boardings 
annually. Lane Transit District has a reputation for innovation 
in our industry. In 1985, our entire fleet became accessible 
with wheelchair lifts on all vehicles. In the late 1980's, we 
also constituted a pass program with the University of Oregon 
student body whereby all students could use their student ID 
passes to ride the bus. It became a model for other university 
cities. We are one of the first transit systems to have 
bicycles on all our buses.
    Eight years ago, we were looking for a new way to enhance 
transit services. We did a rail study, and the community 
concluded that the Eugene-Springfield area was too small for 
light rail or any other rail application. And Bus Rapid Transit 
was adopted as a strategy for achieving our goals. Light rail 
at that time was projected somewhere in the $30 to $60 million 
per mile range, and the BRT application that LTD was looking at 
was projected to be somewhere in the $3-million to $5-million-
per-mile cost.
    We took the idea to the community, the city councils, the 
county commission, and our Congressional delegation, and the 
first phase was funded through TEA-21 in the discretionary 
funding category.
    There is tremendous community interest in this service, and 
the two cities have already approved two additional corridors, 
including connecting a new regional medical center, retail, and 
light industrial centers.
    Bus rapid transit has become one of the cornerstones for 
the 20-year transportation plan in our area.
    We see in this picture a vision for our community. We 
believe that it is the foundation for solutions to the 
congestion that is projected in major corridors in the Eugene-
Springfield area. We also believe that Bus Rapid Transit needs 
to mirror light rail to achieve the kind of performance 
improvements that light rail has. But we believe that Bus Rapid 
Transit--and in Eugene it will be true--should have the 
following elements: A fixed guideway or exclusive right-of-way; 
priority at intersections; improved passenger boarding 
facilities, not just bus stops, stations; limited stops, in 
other words, spaced out to major transportation generators, but 
at intervals that make sense and move buses along; prepaid 
fares collected off-board; at-grade boarding platforms so that 
there is accessibility for anything that walks or rolls; real-
time information; coordination with land-use planning; and 
unique vehicles.
    Phase 1 of our BRT project is 4 miles long. It connects the 
two downtowns between Eugene and Springfield. This corridor is 
our most heavily traveled as it has the University of Oregon 
and a major regional medical center along it. Phase 1 is 60-
percent exclusive right-of-way. The other 40 percent, as they 
redesign part of one of the cities, will come along in the 
future.
    How to move forward? Congress is where we believe we need 
to start. We have been working with our local delegation. I am 
here today to make a number of appeals to this Committee and to 
the Congress as a whole.
    First, we would like to see that there is stable, 
predictable, and guaranteed funding for highways and mass 
transit. We ask that you make no reductions to the current 
Federal transit formula calculations. We ask that you do not 
eliminate the discretionary bus funds. We believe that small 
systems and rural systems have effectively invested those funds 
in their communities, and larger systems have also funded 
projects using the flexibility there.
    We would like to have a category called Small Starts as 
proposed in the Administration's proposal, but we believe that 
the cap on that should be $75 million total project cost. The 
concern there is that large urban projects that have 
significant local funding to match at higher levels will 
squeeze out smaller rural and urban systems.
    We would like to see the requirements for Small Starts 
streamlined. Six or more years of processing puts a heavy 
burden on small systems that do not have that kind of money or 
staff.
    We would also like to see the 80-percent/20-percent local 
match preserved. So, we ask you to please grow the program.
    Finally, one last challenge. I ask that Congress 
participate with the transit systems and the transit 
manufacturing industry to find a way to produce innovative 
vehicles that meet the demand and requirements that have been 
communicated to them by the systems that are considering Bus 
Rapid Transit.
    Thank you for the opportunity to come before you today.
    Chairman Shelby. We thank you, Mr. Hamm.
    We are going to suspend the hearing. We have a vote on the 
floor of the Senate, and as soon as we get back, we will 
reconvene.
    The Committee is in recess.
    [Recess.]
    Chairman Shelby. The Committee will come back to order.
    Mr. Diaz, your written testimony will be made part of the 
record, along with the others. We welcome you to the Senate. We 
know you have come a long way.

                STATEMENT OF OSCAR EDMUNDO DIAZ

      ENRIQUE PENALOSA'S ASSISTANT AT NEW YORK UNIVERSITY

            ADMINISTRATIVE DIRECTOR AT THE INSTITUTE

           FOR TRANSPORTATION AND DEVELOPMENT POLICY

    Mr. Diaz. Thank you. Mr. Chairman and Members of the 
Committee, my name is Oscar Edmundo Diaz. I am the 
Administrative Director of the Institute for Transportation and 
Development Policy in New York and the Assistant to Enrique 
Penalosa, former Mayor of Bogota. I thank you for the 
opportunity to testify today about Bus Rapid Transit.
    Bogota is a 7 million inhabitant city where growing car use 
has hurt the quality of life. Our chaotic transportation system 
was bad for the city, passengers, drivers, and bus owners. In 3 
years, starting in 1998, Mayor Enrique Penalosa created from 
scratch a BRT system called TransMilenio that transformed the 
quality of life in our city and helped renew our civic spirit.
    Mayor Penalosa decided in 1998 to reject a Transportation 
Master Plan that proposed to solve Bogota's traffic jams with a 
metro system and elevated highways because it was unaffordable 
and unworkable, promising mobility for the few, not mobility 
for all. We saw that for the cost of one subway lane, we could 
provide quality
bus rapid transport to the whole city. We would have money left 
for sewage, schools, and parks. TransMilenio cost $5 million 
per kilometer compared to the $66 million per kilometer cost of 
the Washington Metro.
    Chairman Shelby. Say that again.
    Mr. Diaz. $5 million per kilometer compared to $66 million 
per kilometer of the Washington Metro, although Bogota's system 
carries nearly twice the number of people per day on a system 
one-fourth as long as the Washington Metro.
    With the money that Bogota would have paid in 1 year of 
interest for a loan to build the metro, Mayor Penalosa built 
155 miles of bicycle paths that now move 5 percent of the 
population, up 10 times from the ridership we found in 1998. A 
key to the success of Bogota's BRT is the attention paid to 
improving public spaces, bikeways, and sidewalks which make the 
system safe and accessible to all.
    BRT is more than just priority for buses in traffic or 
exclusive bus lanes. The true BRT demands attention to the 
needs of riders as they get to and from the transit system, 
with bicycle parking
garages and safe routes to schools and transit for pedestrians 
and bicycles.
    In TransMilenio, two or four central lanes in main traffic 
arteries are set aside exclusively for buses. Articulated 165-
passenger high-platform buses stop at stations and open their 
doors simultaneously with station doors, as you can see in the 
poster that we have attached.
    Since passengers have already paid, a hundred passengers 
can board in seconds, like a metro, and with handicapped 
access.
    One ticket permits one passenger to change from feeder 
buses to local or express buses. The cost, regardless of the 
trip length, is 36 cents per trip.
    TransMilenio is a nonsubsidized system, wherein all 
operating costs are recovered through the fares collected, 
except for the road infrastructure. It is considered evident 
that since the government pays for the road infrastructure for 
private cars, it must pay for roads used for public 
transportation as well.
    As a public-private partnership, private contractors work 
in concert with TransMilenio which manages the bidding and 
controls
operations but receives only 4 percent of the system's income. 
The contractors who operate buses and collect fares share the 
income. We are expanding the system, and by the year 2016, more 
than 80 percent of Bogota's residents will live within 500 
meters of TransMilenio.
    TransMilenio has cut traffic fatalities by 89 percent, 
noise by 30 percent. The biggest story is TransMilenio's effect 
on how people think about transit. A deputy mayor who had often 
given his assistant a ride was recently surprised when he 
declined a ride saying, ``Sorry, but I am in a rush. 
TransMilenio is faster.'' In fact, most users have cut their 
travel times by a third, saving 300 hours a year on average 
Thirty-seven percent of users report they now spend more time 
with their families. For Senator Miller who asked before, 11 
percent of current TransMilenio riders are car owners.
    The Bogota BRT model is neither technologically 
sophisticated nor economically demanding, although it requires 
political decisions aimed at truly making the public good 
prevail to ensure access for all.
    As you reauthorize TEA-21, I encourage you to ensure a 
doubling of funding for public transportation to expand travel 
choices around the United States. I encourage you to ensure a 
level playing field for transit and highway New Starts, with 
parity in the Federal funding match. I encourage you to support 
the use of New Starts program funding for high-effectiveness 
BRT systems that are designed, like Bogota's system, to operate 
and feel like rubber-tired metros. It would be imprudent to 
divert New Starts funds to low-grade bus system elements, such 
as support for high-occupancy toll lanes offering infrequent 
bus service, lacking dedication of toll revenues for transit 
operating costs, and lacking ongoing attention to system 
access, equity, and environmental impacts.
    I thank you again and I will be pleased to answer any 
questions you might have.
    Chairman Shelby. Thank you very much.
    Ms. Canby.

                    STATEMENT OF ANNE CANBY

        PRESIDENT, SURFACE TRANSPORTATION POLICY PROJECT

    Ms. Canby. Thank you very much, Mr. Chairman and Members of 
the Committee. My name is Anne Canby, and I am President of the 
Surface Transportation Policy Project, and I am very pleased to 
be here this morning to discuss Bus Rapid Transit and other bus 
service innovations.
    The Surface Transportation Policy Project is a nationwide 
organization of over 600 organizations, including advocates for 
transit, pedestrians, bicycles, environment, social equity, 
public health, and growth management. All are devoted to 
promoting balance in the Nation's transportation system.
    Mr. Chairman and Members of the Committee, we thank you for 
your strong commitment to public transportation. Many of my 
colleagues and I believe that this will be the transit century.
    The record shows that public transit has been both a 
popular and a good investment. The TEA-21 funding guarantees 
and the stability this provides have made a huge difference. We 
believe that it is both appropriate and timely for this 
Committee to consider ways to help stimulate transit providers 
to invest in Bus Rapid Transit and enhanced bus services. In my 
written testimony, I have provided several recommendations to 
help make this happen.
    First, the current program structure should be kept, with 
some simple adjustments to the current law to support a broader 
BRT
agenda, as well as enhanced bus services, as Mr. Hamm noted.
    The STPP recommends retaining the New Starts program and 
continuing its focus on fixed guideway projects, including BRT, 
as well as the various rail technologies.
    Next, we believe that the bus discretionary program should 
be continued with modifications to allow for multiyear grant 
commitments for enhanced bus service projects that fall outside 
the criteria of the New Starts program. These commitments could 
be
provided for bus projects that meet a certain threshold 
criteria. The Federal Transit Administration should have a 
process to help you in the Congress determine which bus 
discretionary projects are appropriate for multiyear grant 
committees. The FTA could also build their recommendations to 
Congress based on some criteria that you establish in the bill, 
and these would be in addition to those included in my written 
statement, things such as projected time savings, service 
frequency, the percent of dedicated right-of-way, the 
utilization of intelligent transportation technology, and 
supportive land-use requirements.
    Critical factors for the success of high-capacity transit 
services, including BRT, are supportive land-use requirements, 
particularly for station areas, a distinctive product, high 
service frequency, and a sense of permanence. These are 
especially important, I believe, in the case of BRT because of 
the need to overcome the stigma toward the bus in many 
communities, particularly among developers and the broader 
development community.
    Mr. Chairman, our recommendations follow the basic view of 
the STPP that the TEA-21 law is fundamentally sound. We should 
stay the course, with some adjustments. Let me note those 
briefly.
    Some that are of overriding concern to us include: 
Retaining the 80 percent Federal, 20 percent local matching 
ratio for New Starts, a major achievement of ISTEA that should 
not be rolled back; and continuing the guaranteed funding 
features of TEA-21, again, crucial to increasing investment in 
public transit and continuing the success all over our country.
    We are quite disturbed by the Administration's proposal to 
leave the New Starts program outside of the budgetary 
firewalls, and we are even more alarmed at the discussions 
taking place that would shift most of the dedicated fuel taxes 
in the mass transit account to highways, replacing a certain 
revenue stream with uncertain proceeds from a bonding program. 
And we applaud your leadership with your Members in opposing 
this proposal that would take transit in the wrong direction. 
Thank you.
    Expanding bus services relies on building a strong 
partnership among Government agencies, transit agencies who 
provide the services, and those other agencies that tend to own 
the roadway network. Expanding the current authority, as others 
have spoken to this morning, of local decisionmakers over 
Federal transportation funds, we think, would foster transit-
supported land use and transportation decisionmaking. And 
effective transit services, it is important to note, require 
supportive land-use policies and patterns to integrate 
development with those services. Expanding local authority 
would also foster providing a good pedestrian environment 
around transit stations and stops.
    The STPP believes that the integration of land use in 
transit and roadway development is best addressed at the 
regional level.
    Stimulating greater private sector engagement is an 
important consideration in making BRT and enhanced bus services 
more viable. Investors and developers need to have a sense that 
the transit service is permanent, that the service is a 
distinct product, and that high-density, mixed-use, transit-
oriented development will be permitted along transit corridors.
    In closing, let me just thank you for the opportunity to 
address you this morning.
    Chairman Shelby. Ms. Canby, thank you, and also you will 
note the Senator from Delaware here.
    Ms. Canby. Indeed.
    Chairman Shelby. I think you worked with him closely in his 
Administration when he was Governor. Is that correct?
    Ms. Canby. That is very true.
    Chairman Shelby. Senator Carper.

               COMMENTS OF SENATOR THOMAS CARPER

    Senator Carper. Thank you, Mr Chairman, and thank you for 
holding this very important hearing. I worked for Anne for 8 
years.
    [Laughter.]
    One of the best bosses I have ever had. It was a privilege.
    Ms. Canby. Thank you, Senator.
    Chairman Shelby. Ms. Hecker, the GAO report which you were 
involved in indicates that Bus Rapid Transit can be a very 
cost-
effective alternative which urbanized areas should consider. On 
the other hand, I am sure that there are situations--and you 
have alluded to this, and others have--in which BRT would work 
much better than in others. What are the conditions where it is 
likely that BRT will work the best?
    Ms. Hecker. Well, one of the conditions is that there is an 
appropriate right-of-way, so that you have either the 
opportunity to have the fixed guideway or a dedicated arterial 
lane, but there is not the same opportunity or it would be more 
expensive to try to have either an underground subway or other 
more comprehensive solutions.
    So, the key really is, though, that it is a unique case-by-
case analysis of the topography, of the density of the 
population, so----
    Chairman Shelby. You just have to evaluate it.
    Ms. Hecker. That is right, and I think that is why that 
idea of not prejudicing the evaluation is key, that it really 
has to be case-by-case. And in some cases, part of a corridor 
will be BRT on arterial street and part of it will be dedicated 
right-of-way. So there is lots of variation even within the 
same corridor. It is not that there is one pure solution.
    Chairman Shelby. Can you provide more detail, either now or 
for the record, about the cost comparison between light rail 
and BRT options?
    Ms. Hecker. In our study, we evaluated 20 BRT projects, and 
basically we felt you had to categorize the cost of them by the 
different types of system, because they varied quite a bit. The 
busways basically averaged about $13 million per mile. The 
upgrading or conversion of HOV lanes cost about $9 million per 
mile. The improvement of the arterials averaged about $700,000. 
These compared with 18 light-rail systems that we looked at, 
and they averaged $34 million. So even the most expensive, the 
busway, which averages $13 million, was nearly a third of the 
average cost of the light rail.
    On the other hand, we actually had some outliers where the 
light rail was cheaper than the most expensive BRT options.
    Chairman Shelby. You just have to weigh it, don't you?
    Ms. Hecker. Precisely.
    Chairman Shelby. As we have heard earlier, the Bush 
Administration is proposing to expand eligibility of the New 
Starts program to include nonfixed guideway projects in order 
to help support Bus Rapid Transit. Is that a workable proposal?
    Ms. Hecker. We do not have----
    Chairman Shelby. Is it better to fund such projects through 
the bus program?
    Ms. Hecker. We do not have a firm position on that, and I 
think Ms. Canby actually put out a different options to 
facilitate more financing for nonfixed guideway. But basically 
right now the nonfixed guideways really are prejudiced. The 
urban formula grant and the bus discretionary program do not 
have the characteristics of reliable, multiyear funding, and 
basically they are at a competitive disadvantage. As it is 
today, it may disadvantage a lower cost ideal option that would 
be eligible for New Starts funding.
    Chairman Shelby. So, Mr. Brosch, how do you pronounce your 
name?
    Mr. Brosch. It is Brosch, by gosh. Thank you, Senator.
    Chairman Shelby. That is good. You suggest that a flexible 
approach is the best way to try to define, which we have been 
talking about here today, Bus Rapid Transit. In addition, you 
indicate that there are three approaches which could be used to 
help support the BRT projects: Expanding New Starts, expanding 
the bus program, or establishing a separate BRT program.
    Which is the best approach?
    Mr. Brosch. I wish I knew, Senator. I have to tell you, 
quite candidly, each of them has some strengths and each has 
some weaknesses. What we would like to do, as I can tell your 
members are wanting to do, is to make sure that as we make 
those choices that we are making the proper trade-offs; that 
if, in fact, we create a new program--which is a great idea to 
stimulate this good thing of BRT, without competing against 
LRT--that we do not inadvertently create a program where people 
just go for that pot of money because it is there.
    If we put it in New Starts, as the Administration would 
have us do, we certainly have to wrestle with these issues of 
definition. We have to make sure that the criteria for 
evaluating them is appropriate for the size.
    Chairman Shelby. Well, so what do you mean by unintended 
consequences?
    Mr. Brosch. An unintended consequence would be if you put 
it in the bus program, did not change the size of the bus 
program, and now instead of agencies focusing on the important 
routine replacement of buses, they go after the more 
attractive, get this new system and let the old system 
deteriorate. That would be an unintended consequence.
    Chairman Shelby. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. This 
has been a very interesting panel.
    Ms. Hecker, did you direct this GAO study? Were you 
involved in it?
    Ms. Hecker. Yes, sir.
    Senator Sarbanes. I want to ask a few questions about its 
methodology, if I might, because it is obviously important as 
you do these comparisons.
    On the capital cost comparisons, did you spread the capital 
cost of construction over the useful life of the assets?
    Ms. Hecker. We were certainly working to make it comparable 
in the cases, and in every case we worked to get a consistent 
allocation of costs, particularly relative to light rail. We 
basically had case studies that included both Bus Rapid Transit 
and light rail in each city, so we were working with a common 
community and, therefore, had more likelihood of getting 
comparable data.
    Senator Sarbanes. Well, I would like to check into that 
further. Let me just as a hypothetical, without necessarily 
accepting that response, because I have been led to believe 
differently. But since light-rail cars and tracks have a longer 
useful life than BRT vehicles, that should be factored into the 
comparison, should it not?
    Ms. Hecker. There definitely may be variations and 
opportunities for improvements, and we would clearly be happy 
to supply for the record the acknowledged limitations that may 
exist in the cost studies. A bus is not comparable to a light-
rail vehicle in terms of the useful life. So, you are right 
about that.
    Senator Sarbanes. My question is: When you compare the cost 
of the two modes, shouldn't you spread the capital costs of 
construction over the useful life of the assets?
    Ms. Hecker. That seems to be a viable approach, and if we 
did not, I think that was a limitation----
    Senator Sarbanes. Let me strike the word ``viable.'' It 
seems to me to be the appropriate approach if you are going to 
have an
apples-to-apples comparison, is it not?
    Ms. Hecker. You are right, ideally you have life-cycle 
costing in major transportation investments. There is no doubt 
that that is the preferred way to do the analysis.
    On the other hand, to keep the information comparable and 
to have it be the way the local community actually built the 
system, we worked to identify the actual construction costs.
    Senator Sarbanes. You mean you did not have a parameter of 
comparing in which you factored this in?
    Ms. Hecker. We basically tried to book capital costs----
    Senator Sarbanes. You were just telling the Chairman you 
have to evaluate each situation and look at it carefully, but 
on what basis do you evaluate it? It seems to me, what is the 
most fundamental question in these comparisons, that you should 
take into account is the useful life of the assets. Isn't that 
correct?
    Ms. Hecker. That clearly has merit and is an important part 
of good analysis of major transportation investments.
    Senator Sarbanes. Well, you better let me know whether that 
is what you did or not. Okay.
    Ms. Hecker. I would be happy to clarify for the record.
    Senator Sarbanes. All right. Now, let me ask you about the 
operating costs. You compared operating costs per passenger 
trip for light rail and Bus Rapid Transit.
    Ms. Hecker. That is correct.
    Senator Sarbanes. And you found that in Dallas light-rail 
operations cost $2.68 per passenger trip while BRT cost 31 
cents. Is that correct?
    Ms. Hecker. I am not familiar with that number. The general 
observation was that no one approach had an advantage over the 
other. I do not recall what those numbers represented. Our 
overall conclusion on operating cost was that neither BRT nor 
light rail had a consistent advantage over the other one.
    Senator Sarbanes. Well, I refer you to page 24 of the GAO 
study, Figure 9. Do you have it there?
    Ms. Hecker. I do.
    Senator Sarbanes. Operating cost per unlinked passenger 
trip, 1999, Dallas----
    Ms. Hecker. Right, and----
    Senator Sarbanes. --$2.68 light rail, 31 cents plus rapid 
transit. Is this correct?
    Ms. Hecker. Right. That is in Dallas. And then you see we 
have five other cities----
    Senator Sarbanes. I just want to focus on Dallas for a 
moment.
    Ms. Hecker. Okay.
    Senator Sarbanes. So, the figures that I gave you about 
Dallas were correct.
    Ms. Hecker. For Dallas.
    Senator Sarbanes. Is that right?
    Ms. Hecker. Correct.
    Senator Sarbanes. All right. Now, I understand that in 
Dallas the BRT vehicles run on an HOV lane. Is that correct? 
High-occupancy vehicle lane?
    Ms. Hecker. I understand there are anomalies in what is 
called transit in Dallas, and there are bona fide open issues 
about what goes into that data. So there are anomalies in 
different cases.
    Senator Sarbanes. Let me just stay with the Dallas thing.
    Ms. Hecker. Okay.
    Senator Sarbanes. This HOV lane carries automobiles which 
have more than two or three people in carpools. Is that 
correct?
    Ms. Hecker. That is correct. I do not know whether it is 
two or three there.
    Senator Sarbanes. I understand you included the passenger 
trips made by the carpools in the equation of what was being 
carried by the BRT system. Is that correct?
    Ms. Hecker. As I said before, we worked to get this compar-
able--particularly to gather this data with each local area, 
and we agree that it was anomalous the way Dallas did, in fact, 
define, as you have specified, multipassenger vehicles as 
transit. And I think that is a stretch, and I think you are 
quite correct.
    Senator Sarbanes. So the 31-cent-per-passenger cost here is 
not just the passengers on the BRT. It is all the passengers in 
the HOV automobiles. Isn't that correct?
    Ms. Hecker. I believe so.
    Senator Sarbanes. What kind of comparison is that? I mean, 
with all due respect.
    Ms. Hecker. Well, this data was not available for anyone in 
doing this report, this was the first time there was an overall 
attempt to compare not just the capital costs but the operating 
costs. It is clarified in our methodology that there were 
limitations in this. But even the overview of that table 
supported the observation that there is not a consistent 
advantage for one mode over the other. And basically we think 
while there are limitations in the data, it supported the 
general observation that no----
    Senator Sarbanes. But you are not going to get off the hook 
that easy by saying, look, this is in the context of other 
things. I am trying to get at your methodology. These are tough 
decisions, and, you know, we have to analyze them pretty 
carefully, and I have serious doubts about your methodology 
here. In Dallas, at least, you are including people driving 
private vehicles as passengers for a Bus Rapid Transit system 
and making your comparison of per passenger cost on that basis.
    Ms. Hecker. You can see it is an outlier with all the other 
BRT. It is not in the same ballpark of the ones that are $1, 
$1.06----
    Senator Sarbanes. Well, I have not looked at those. I mean, 
I do not know whether if we took a look at those we would find 
faults in the methodology as well. But the only point I am 
going at is you have included here in your chart this 
methodology of cost per passenger comparing BRT and light rail. 
And in the Dallas case, at least, you are including as 
passengers for the cost of the BRT people in private 
automobiles making use of the HOV lanes.
    That does not strike me as an appropriate concept to be 
using in making these comparisons. That is the point, very 
simply put. I do not know how you defend that.
    Now, you can try to divert attention by pointing to the 
other columns there, but how do you defend it in that instance?
    Ms. Hecker. It is data that does not exist, and the best 
that we could do. Because the operating costs were not broken 
out by different types of vehicles, we had to report the way 
the data was available and collected at the local area.
    Senator Sarbanes. The only data you had was all of the 
people who rode in the HOV lanes, bus and automobiles. Is that 
right?
    Ms. Hecker. The way the transit authority collected the 
data and the only way they could make operating data available 
included their extremely generous and expansive definition of 
Bus Rapid Transit.
    Senator Sarbanes. All right. Let me ask--I am sorry. How 
much time do I have? Have I used up my time?
    Chairman Shelby. You go ahead, Senator.
    Senator Sarbanes. I want anyone on the panel who wants to 
answer this. What is the economic development benefits that 
come with Bus Rapid Transit as opposed to fixed rail, either 
metro or light rail? Ms. Canby, why don't you take a shot at 
that to begin?
    Ms. Canby. Senator, I will give it a shot. Based on my 
experience in working with some developers, I think it is 
pretty clear that, at this point, the economic impact of Bus 
Rapid Transit is going to be less than a fixed guideway rail 
investment because the development community tends not to view 
or really pay attention to bus transit services. Salt Lake City 
is a good example. A developer out there indicated to me that 
before the light-rail line was built, they had no interest in 
building near transit. And now that the light rail is in, they 
are all clambering all over each other to get near transit.
    So there is a very different pull, and I mentioned in my 
statement the stigma of the bus. In the development community, 
it is a very strong impedient, I would say, to attracting 
development around transit. Pittsburgh has overcome some of 
that, but I still think it is a major issue.
    Senator Sarbanes. Should the economic benefits that would 
result from the transit project be factored into the equation 
in evaluating what systems you want to use? Is it an 
appropriate item to be included even though it is external to 
the transit system itself ?
    Ms. Canby. I would think, yes, very much that the economic 
development potential should be included as a factor in any 
major transit investment because it will have a huge influence 
over the level for ridership.
    Senator Sarbanes. Does someone else want to add anything? 
Yes, Mr. Hamm?
    Mr. Hamm. Senator Sarbanes, I wanted to add that one of the 
considerations in our community around the development of this 
application was the debate about permanence in the corridor. 
What we heard from developers is that typical fixed-route 
transit applications are portable. They can be moved depending 
on how communities react to them.
    In these corridors, because they are permanent corridors 
and because we are looking for permanent solutions, the 
investment in our case in a fixed guideway for the transit 
system tells the development community that we are making a 
permanent, long-term commitment to that corridor solution. And 
I think it has the potential, while I do not have any hard data 
because it will be a while before we are on the ground, but we 
believe it has the potential to drive joint development. We 
have had inquiries from developers
already along that corridor, as well as the potential to have 
an
economic benefit in terms of connecting some of the nodal 
pieces throughout our two-city community.
    Senator Sarbanes. Your system is primarily fixed guideways, 
is it not?
    Mr. Hamm. Correct.
    Senator Sarbanes. Well, I understand that. I think when you 
have fixed guideways, you can probably get pretty direct 
comparisons. It is this nonfixed guideways which seems to me to 
raise a lot of very important questions.
    Mr. Diaz, did you want to add something?
    Mr. Diaz. Yes, I just would like to share our Bogota 
experience. Normally, the cost of kilometer of a BRT system is 
around $3 to $4 million.
    Senator Sarbanes. Are you primarily fixed guideways in 
Bogota as well?
    Mr. Diaz. They are like this, isolated corridors, exclusive 
corridors for buses.
    Senator Sarbanes. Only buses.
    Mr. Diaz. Yes, only buses. We do not mix them with private 
traffic. We also use feeder buses, which take people from the 
outskirts to the TransMilenio lanes. But they are isolated.
    Senator Sarbanes. So, you run the buses down that lane just 
like you would run a subway----
    Mr. Diaz. A subway.
    Senator Sarbanes. --car down a track, right?
    Mr. Diaz. It is like a surface subway.
    Senator Sarbanes. Well, can anyone get at that lane other 
than
your buses?
    Mr. Diaz. No, no--well, ambulances, for example, if there 
is an accident or something. But no cars, not even the 
diplomatics or the government cars, can use them.
    [Laughter.]
    Senator Sarbanes. You really do restrict them, don't you?
    [Laughter.]
    Mr. Diaz. We have to.
    Anyway, what I wanted to say is that in our case we invest 
more money building the corridors because we invest a lot of 
money in public spaces and sidewalks along the BRT system and 
perpendicular. That has improved a lot of the area around the 
BRT system, and that has become a renewal, an urban renewal for 
the city.
    Another very interesting thing about the new developments, 
besides that, is that our buses are more labor-intensive than 
metros. Not so many countries make metros. I mean, the trains 
themselves. But the buses you can build them. For Phase 1 in 
Bogota, we had to import them because we imported a lot of 
buses at the same time from Brazil. Now, for Phase 2, we are 
assembling the buses in Colombia, so we are generating more 
jobs in Colombia. And that is very important.
    I have to explain something very quickly. In our system, 
TransMilenio is the local agency, but the operation is done by 
private contractors. So the buses that you see there, the red 
buses, are operated by private contractors so we do not buy the 
buses. They are bought, purchased by private operators.
    When they were going to implement the system, nobody wanted 
to lend them money. They were unable to access loans in 
Colombia. So they had to access a loan in Brazil, a loan that 
would allow them to export the buses to Colombia. But for Phase 
2, now the loan is given in Colombia with the same rates and 
benefits that they had before. So now that the system is 
working, there is also a new improvement in the other factors 
that play in the system, like the loans, like the buses being 
built in Colombia.
    I think it is a whole improvement also in the urban 
renewal, as I said.
    Senator Sarbanes. Thank you.
    Chairman Shelby. Mr. Hamm, in your testimony I think that 
you talked about this. The design and construction cost is 
currently estimated at $16 million or $4 million per mile. This 
is about 10 percent of the cost of a moderately priced light-
rail line--your words. That is a significant difference, and I 
think you have to look, as people have said here, at each 
special deal. Did you consider in your alternative analysis 
light rail, as an option?
    Mr. Hamm. There was a rail study done by the community in 
the preliminary discussions around the enhancement of public 
transportation in the development of the 20-year transportation 
plan. And when the community looked at the cost, they believed 
that that investment was not appropriate for a community the 
size of the Eugene-Springfield area.
    Chairman Shelby. You also note in your testimony that you 
had difficulty choosing a vehicle for your service because of 
the lack of availability of American vehicle manufacturers 
providing rail-like BRT vehicles. You suggest that our 
reauthorization bill should contain funding or incentives for 
American manufacturers to break into this market.
    What do you have in mind here? It looks like the market 
would work here. If there is a demand, somebody would supply it 
if the demand was sufficient.
    Mr. Hamm. That loggerhead may be changing, Mr. Chairman, 
but the reality is that because most of the larger transit 
systems in the United States purchase the largest number of 
vehicles, as Bus Rapid Transit has emerged, some of the 
technologies that are, I think, critical to an effective BRT 
application haven't been incorporated in vehicles here, things 
like guidance systems for precision docking in particular.
    Chairman Shelby. Why haven't they, though?
    Mr. Hamm. The manufacturers just have not gone there. They 
have been stubborn about we have our corner of the market and 
we are----
    Chairman Shelby. Okay.
    Mr. Hamm. You know, I think part of it is the substantial--
I talked to one manufacturer recently. It was somewhere between 
$14 and $16 million to redevelop a vehicle around this market, 
including retooling and a number of other engineering costs.
    Chairman Shelby. But if there is enough demand, somebody 
will, if there is competition.
    Mr. Hamm. I think it will come. But probably being out on 
the leading edge, we have been a little more frustrated than 
others.
    Chairman Shelby. Okay. Mr. Diaz, your project sounds like a 
great success from what you have said. How is it funded? I 
thought you said that it paid for itself. It is not 
operationally subsidized, is that correct? Do you subsidize the 
operations of it?
    Mr. Diaz. No, no. It is a nonsubsidized system.
    Chairman Shelby. How are your operational costs covered?
    Mr. Diaz. Okay. This is the way it works: All the 
infrastructure, like the corridors and the stations, are built 
by the city. And the money that we used to----
    Chairman Shelby. Infrastructure costs are provided by the 
city.
    Mr. Diaz. Yes, it is provided by the city, and the money 
that we use to build those corridors comes from a tax, a 
gasoline tax. That is 25 percent, and from that 25 percent, we 
take 15 percent that goes directly to the construction of the 
corridors.
    Then the operation, as I said, the ticket is 36 cents per 
passenger, and all of that money goes to a trust fund. That 
trust fund receives 0.4 percent to manage the money. Then the 
bus operators, there is a formula, but basically it is per bus 
kilometer. The bus operators are private companies and are paid 
up to 65 percent. So let's say for $1 that the system receives, 
65 cents goes to the bus operation based on the bus kilometer 
they run. Then the ticketing, so that the people that collect 
the money, they receive 11 percent based on the tickets they 
sell. The other part goes to the feeder buses. They receive 20 
percent from this share, up to 20 percent based on passengers 
they move.
    So that this is the way the system distributes the income 
and all costs are covered. This is very important. The city 
does not have to pay a cent to pay all of the actors in the 
system. And also, TransMilenio is a very small entity. It only 
has 70 people working. And one of the functions that they have 
is to manage the system, control the system, and also be in 
charge of all the administration issues that the system 
requires.
    Chairman Shelby. How many passengers a day does your system 
carry?
    Mr. Diaz. 792,000 in 41 kilometers.
    Chairman Shelby. That is a lot of people.
    Mr. Diaz. Yes, and in one of the most congested corridors, 
we move 35,000 people in peak hour per hour per direction, and 
that is very high. And, in fact, it is higher than, for 
example, the most congested line in the metro in Madrid. So it 
is comparable in capacity. That is one of the normal questions 
that you have when you are promoting BRT systems, the capacity, 
because you normally can move more people in the metro system. 
But it turns out that in Bogota, TransMilenio is moving more 
people per hour per direction than a metro like Madrid. 
Sometimes it is not just a matter to say that BRT moves less 
people.
    Senator Sarbanes. What are the alternatives for your users 
in terms of transportation to the BRT?
    Mr. Diaz. Well, of course, we still have some of the old 
chaotic system in other corridors, which is--I mean, it is 
still a mess.
    Senator Sarbanes. What percent of the people using the BRT 
have a private automobile?
    Mr. Diaz. Eleven percent, which, by the way, was something 
that we were not expecting.
    Senator Sarbanes. So 89 percent of your passengers do not 
have a private automobile.
    Mr. Diaz. Exactly, and 11 percent have. And, in fact, we 
were not expecting that demand, so we had to increase the 
number of buses because we were not expecting--as I said in my 
statement, now it is faster to move using the TransMilenio than 
the private car. So, people realize that it is faster to move--
--
    Senator Sarbanes. I know, but most of your people are a 
captive clientele, aren't they? I mean, they have no 
alternative.
    Mr. Diaz. Well, of course, they have to use the other 
system. I mean TransMilenio is only 41 kilometers. By 2016, it 
is going to be 388 kilometers.
    Senator Sarbanes. But our problem is different. We have to 
get the people out of the car.
    Mr. Diaz. Yes, we also have to take them out of the car, 
and one of the measures----
    Senator Sarbanes. You say 89 percent of your users do not 
have an automobile. It is a different problem.
    Mr. Diaz. Oh, yes.
    Chairman Shelby. Did you take them out of the car or were 
they already out of the car before you built this?
    Mr. Diaz. They had the car and they used the car on a daily 
basis. But they left the car at home and decided to move in the 
TransMilenio system instead of the car. That is what I am 
saying.
    Senator Sarbanes. What percent did that?
    Mr. Diaz. That is the one I said, 11 percent. I mean, what 
I say is 11 percent of current TransMilenio riders, they have a 
car.
    Senator Sarbanes. Yes, 89 percent do not.
    Mr. Diaz. Do not, of the TransMilenio riders.
    Senator Sarbanes. Yes, well, that is the point.
    Chairman Shelby. That is the same point.
    Mr. Diaz. There is something else.
    Chairman Shelby. Go ahead.
    Mr. Diaz. The other thing that is very interesting is that 
we also built 155 kilometers of bicycle paths, and we are now 
moving 5 percent of the population on bicycles. When we arrived 
in 1998, only 0.4 percent of the population used the bike as a 
means of transportation. So it is very interesting to see how 
you can also use other means of transportation.
    And we also need to take people out of the cars, and we use 
car restriction during peak hours. That also encourages people 
to take public transportation.
    Chairman Shelby. Ms. Canby, I have a couple of quick 
questions. You stated that you believe it is appropriate to 
continue the requirements for New Starts projects to include a 
fixed guideway component. You also suggest that a process be 
developed to include multiyear commitments from the bus 
discretionary program.
    Doesn't the present limit on eligibility have the potential 
to bias local decisions toward projects which are eligible for 
funding even when a nonfixed guideway project might be the 
better choice? Do you understand what I am saying?
    Ms. Canby. Yes. Mr. Chairman, my recommendation is based on 
my experience with transit services and the market perception. 
I think the challenge is to find a way to allow both kinds of 
projects to move forward without the biases that may be 
inherent in the program today.
    Chairman Shelby. You have to evaluate the project, don't 
you?
    Ms. Canby. To evaluate it, and I think creating another 
outlet through the bus discretionary program may be a good way 
to allow a broader array of projects to move forward.
    Chairman Shelby. Is it really practical to include a 
process for multiyear commitments in the bus program, which 
typically supports a very large number of projects, with an 
average of only about $1 million per year per project?
    Ms. Canby. The way to overcome that, Mr. Chairman, would be 
more money.
    Chairman Shelby. I know.
    [Laughter.]
    Senator Sarbanes and I understand that.
    Ms. Canby. I know you do.
    Chairman Shelby. We would like to do that.
    I want to thank the panel for coming and participating. We 
think this is very important for our record here on 
reauthorization. And we appreciate your patience when we were 
voting.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 12:36 p.m., the hearing was adjourned.]
    [Prepared statements, response to written questions and 
additional material supplied for the record follow:]
             PREPARED STATEMENT OF SENATOR DEBBIE STABENOW
    Mr. Chairman, thank you for holding this hearing on Bus Rapid 
Transit and innovative bus technologies. Ensuring safe and efficient 
public transportation is one of the most critical issues that we face 
as Members of this Committee.
    I look forward to working with the Chairman, and all Members of 
this Committee, as we craft a strong mass transit title to the upcoming 
TEA-21 reauthorization this year.
    There are bus systems operating in every one of Michigan's 83 
counties, and I am extremely interested in technologies that can help 
these systems to run more safely and efficiently.
    While transit discussions often focus on rail and subway systems, 
States like Michigan that do not have a major subway system also have 
tremendous mass transit needs.
    Yesterday morning, I heard a piece on National Public Radio (NPR) 
about low wage workers. One person featured was Detroiter, Marzs Mata, 
who works for Comcast customer service in one of Detroit's suburbs, and 
commutes by bus from downtown Detroit.
    It takes Marzs about five hours every day to get to and from work, 
an ordeal that involves taking three different buses. She doesn't have 
a car, and cannot afford to live near her job, making public 
transportation her only option.
    Mass transit plays a critical role in Michigan's economy, not only 
by creating thousands of jobs, but by providing critical services for 
Michiganders who cannot afford to own a car.
    For example, 78 percent of jobs in metro Detroit are 10 miles or 
more from downtown, more than twice the national average, making public 
transit critical for working families.
    Unfortunately, Michigan's public transit needs have long outpaced 
the amount of Federal funding the state receives. Michigan currently 
ranks last in Federal transit funding among the Great Lakes States, and 
only receives 43 cents back on every transit dollar it contributes to 
the highway trust fund.
    This shortfall exists despite the significant contribution by 
Michigan taxpayers. Michigan ranks 6th, behind five States with rail, 
in direct support for its public transit systems.
    I am pleased to be here today as we begin our work on improving our 
mass transit programs. I hope to be able to work with my colleagues on 
this Committee to help States like Michigan, increase access to public 
transportation, which will improve our economy and our quality of life.
    Thank you.

                               ----------
               PREPARED STATEMENT OF SENATOR WAYNE ALLARD

    I would like to thank Chairman Shelby for holding this hearing. Bus 
Rapid Transit is probably one of the most frequently discussed areas of 
reauthorization, so it is only appropriate that we examine it here in 
this Committee.
    I am pleased to see that the Federal Transit Administration has 
taken steps to make Bus Rapid Transit more widely available. I strongly 
believe in local decisions. It is important that we allow local groups 
to consider as many options as possible.
    It is especially sensible that we do more to promote Bus Rapid 
Transit as an option when it has the potential to offer similar 
capacity to rail systems at only a fraction of the cost.
    In expanding the existing transit programs to encompass Bus Rapid 
Transit, there are a number of issues that the Banking Committee must 
carefully consider. Namely, how can we offer BRT as an option and allow 
maximum flexibility, while also ensuring that the money is going toward 
genuine BRT, that is to say projects that offer significant, genuine 
corridor improvements. I do not think that anyone on this Committee has 
the desire to invest more taxpayer dollars in a project that is really 
nothing more than a repainted version of traditional bus service.
    Some advocate the standard of a fixed guideway as the baseline for 
a BRT project. While that can be an important indicator, I am not 
convinced that a fixed guideway alone should determine eligibility for 
BRT money.
    For example, many of Colorado's mountain communities are facing 
transportation difficulties, particularly with workforce commuting 
issues. Some are examining BRT as a sensible option to address their 
needs. However, given the physical limitations of the mountain valleys 
and existing roads, it would be extremely cost prohibitive for them to 
construct a separate right of way. However, BRT still offers them one 
of the best options available. I do not want to preclude them from 
considering that possibility.
    I am hopeful that we can find standards that demonstrate a genuine 
BRT project, while still allowing flexibility for local decisions. This 
hearing is a good step in that direction.
    I would like to thank the witnesses for being here today. Your 
testimony will be a significant help to the Committee as we continue to 
consider reauthorization of TEA-21. I look forward to your testimony.

                               ----------
              PREPARED STATEMENT OF SENATOR ELIZABETH DOLE

    .I want to thank you, Mr. Chairman, for holding today's hearing on 
Bus Rapid Transit and other bus service innovations. Bus service has 
long provided an important transportation option for communities across 
the Nation. Bus Rapid Transit represents an effort to take advantage of 
the low cost of bus services compared to more expensive mass transit 
alternatives, thereby maximizing the effectiveness of our transit 
dollars.
    Bus Rapid Transit projects can combine relatively low vehicle and 
roadway construction costs with the modern stations, frequent service, 
and dedicated pathways associated with rail and light rail 
alternatives. In doing so, we create a convenient, efficient and cost-
effective transportation alternative that has the added environmental 
benefits associated with decreasing the number of cars on the road.
    Despite their obvious appeal for our cities, Bus Rapid Transit 
systems face some challenges. Some believe that middle class and 
wealthy populations will refuse to use bus services because they view 
these services as being for low-income individuals. This view can 
affect the community planning choices made by developers and retailers, 
who are an important part of any new mass transit project. Also, some 
question the long-term operational costs of a Bus Rapid Transit system 
when compared to a rail or light rail alternative whose operational 
costs are seen as lower.
    These issues are very important to North Carolina, especially 
considering the fact that the Charlotte Area Transit System has plans 
for the use of Bus Rapid Transit facilities in three of the planned 
corridors and already has over two miles completed in the Southeast 
Corridor. Bus Rapid Transit represents an important option for mass 
transit that I hope will become a reality for other North Carolina 
communities as well.
    I would like to thank our witnesses for taking the time to join us 
here today to share their perspectives with us. I look forward to 
working with my colleagues on this and other transportation issues as 
we prepare to reauthorize the Transportation Equity Act for the 21st 
Century.
    Thank you. 

                               ----------
                 PREPARED STATEMENT OF JENNIFER L. DORN
             Administrator, Federal Transit Administration
                   U.S. Department of Transportation
                             June 24, 2003

    Mr. Chairman and Members of the Committee, thank you very much for 
the opportunity to testify today on the subject of Bus Rapid Transit 
(BRT) and other bus service innovations.
    History tells us that the means by which we travel will change, but 
public transit can be expected to remain an important mode of 
transportation in America. In the early 1800's, Americans relied on 
their own feet, horses, and buggies to get from one place to another. 
In the mid-nineteenth century, railroads began crossing the continent, 
and by the turn of the century, subways and streetcars became their 
urban equivalent. Although the automobile first appeared in the early 
1900's, most Americans still depended on buses, streetcars, and subways 
for transportation until after World War II, when the highway network 
expanded, most urban streets were paved, and the car became an 
affordable transportation choice. The automobile is, in fact, a 
relatively recent arrival in the history of transportation.
    Now, at the dawn of the 21st century, with traffic congestion, 
energy and environmental challenges, and the desire for greater 
independence and economic opportunity, we are witnessing the 
reemergence of public transportation as the mode of choice for many 
Americans. Key to this reemergence is continued innovation, as we 
develop new ideas and new technologies, and expand the number and scope 
of safe, fast, convenient, and reliable public transportation options.
    The Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA) and the Transportation Equity Act for the 21st Century (TEA-21) 
have played a critical role in the resurgence of public transportation 
in America. Among the most important provisions was shaping the New 
Starts program, as we know it today, to help growing communities plan 
and construct new permanent public transportation systems or expand 
those already in existence. When these laws were passed, transit 
``fixed guideway'' systems--subways, light rail, commuter rail, 
trolleys--were envisioned as the options for communities to consider as 
they created the next New York subway, San Francisco trolley, or 
Chicago ``el.'' But in the few short years since TEA-21 was signed into 
law, a new option has emerged--Bus Rapid Transit--that does not 
necessarily require a fixed guideway. Continued public and private 
investment in the development of new public transportation technologies 
is certain to generate additional options in the coming years.
    In my remarks today, I will discuss the success and potential of 
Bus Rapid Transit as we know it today, as well as the Administration's 
proposed changes for the New Starts program in the President's fiscal 
year 2004 budget and reauthorization of the surface transportation 
programs.

Bus Rapid Transit
    Let me tackle the hardest question first: What is Bus Rapid 
Transit? This question is difficult because Bus Rapid Transit is not 
defined by a predetermined set of physical characteristics. 
Fundamentally, it is a service--one that is fast, reliable, convenient, 
affordable, accessible, and aesthetically distinguishable from 
``regular'' bus service.
    Conventional urban bus operations bring to mind nondescript 
vehicles inching their way through congested city streets, delayed not 
only by other vehicles and traffic signals, but also by frequent and 
time-consuming stops to pick up and discharge passengers fumbling with 
coins as they board. Bus Rapid Transit systems, on the other hand, 
achieve their superior service levels by incorporating some or all of 
the following features:

<bullet> Express service with fewer bus stops, wider station spacing, 
    and off-line boarding to shorten the amount of time spent at 
    stations and improve travel time.

<bullet> Vehicle tracking systems that use satellites or roadside 
    sensors and permit ``next vehicle'' information displays at 
    stations, automated stop announcements for passengers, traffic 
    signal priority, and enhanced safety and security.

<bullet> Off-board fare collection systems, that may include passes, 
    prepurchased tickets, or ``smart cards'' that rely on microchip 
    technology to speed fare collection and reduce boarding time.

<bullet> Specialized roadways that may include fixed guideways (such as 
    expressways, busways, and streets designated for the exclusive use 
    of buses) or nonfixed guideways (such as lanes barrier--segregated 
    from other traffic by physical barriers, exclusive bus lanes on 
    normal roadways, or even mixed traffic lanes that incorporate 
    features like off-lane boarding or signal prioritization).

<bullet> Improved vehicles with low floors, wide aisles, and 
    distinctive design, color, or graphics. Low-floor buses permit easy 
    entrance and exit, comply with the requirements of the Americans 
    with Disabilities Act (ADA) of 1990, and reduce the boarding time 
    for persons using mobility aids. More and wider doorways also
    facilitate the rapid entry and exit of passengers, as does a well-
    designed interior space. Along with distinctive design, these 
    features all help overcome negative perceptions of buses.

<bullet> Vehicle control systems that permit precision docking and 
    level passenger boarding without causing damage to the vehicle's 
    tires or structure. Vehicles can be equipped with sensors or 
    mechanical systems to control the height, location along the 
    platform, and distance from the platform.

    At the high-end of the spectrum, BRT combines dedicated roadways, 
modern stations, high-tech vehicles, and frequent service that are 
characteristic of rail systems, but at a lower cost. BRT, however, also 
offers promise as a means to create real improvements in traditional 
bus service. In fact, the technological advances associated with Bus 
Rapid Transit are already being used to improve ``regular'' bus 
service. For example, automated vehicle location technologies, such as 
satellite or roadside sensors that track the location of vehicles, can 
be used to control traffic signals and give priority to transit 
vehicles. The signal priority system of the Los Angeles Metro Rapid Bus 
system along Wilshire Boulevard, for example, has reduced transit 
travel times by nearly 30 percent, and total bus ridership is up by 
almost 40 percent. Today, the Rapid Bus System in Los Angeles carries 
45,000 passengers daily--and that is in addition to the 45,000 daily 
riders on the ``local'' bus that travels the same corridor. The system 
has been so successful that the Los Angeles County Metropolitan 
Transportation Authority now operates a total of 65 route miles along 
four corridors, and plans to add another twenty-two corridors by 2008, 
at a rate of four per year.

Funding Sources for Bus Rapid Transit
    Bus operation planning is generally the responsibility of the local 
transit operators, in cooperation with regional multimodal 
transportation planning agencies, such as metropolitan planning 
organizations (MPOs). A variety of service improvement strategies--
including many improvements associated with Bus Rapid Transit--may be 
funded through a number of existing Federal Transit Administration 
(FTA) programs. These include the Urbanized Area formula program, Non-
Urbanized Area formula program, and the Bus and Bus Facilities major 
capital investment program. Communities may also use Congestion 
Mitigation and Air Quality Improvement Program (CMAQ) and Surface 
Transportation Program (STP) funds (often referred to as ``flex-
funds").
    When a community determines through its multimodal transportation 
planning process that a major transportation capital investment may be 
required to meet the mobility needs in a given corridor, it may decide 
to pursue the development, funding, and implementation of a New Starts 
project. The New Starts project planning and development process, as 
you know, is established in law, regulation, and guidance. It includes 
alternatives analysis, preliminary engineering, and final design, and 
it culminates in a full funding grant agreement for meritorious 
projects that rate well on the project justification and financial 
criteria established in law for all New Starts projects.
    The FTA strongly encourages every community that is interested in 
New Starts project funding to consider and evaluate the costs and 
benefits of Bus Rapid Transit, along with other fixed guideway options 
that are currently eligible under the New Starts program. Mobility 
improvements, environmental impacts, operational costs, cost-
effectiveness, and economic impacts should all be assessed when 
planners and local decisionmakers compare and select a locally 
preferred alternative for a corridor. Although a 2001 General 
Accounting Office (GAO) report comparing systems in four cities, found 
that BRT systems have lower capital costs, comparable operating costs, 
and greater flexibility than light rail systems, relatively few 
communities have selected Bus Rapid Transit as their locally preferred 
alternative.
    Currently, the New Starts pipeline has five Bus Rapid Transit 
projects in preliminary engineering and one in final design. To date, 
three full funding grant agreements have been executed for fixed 
guideway bus projects in Pittsburgh, Boston, and Houston. All of these 
projects were initiated before the current concept of BRT took form.

<bullet> In Pittsburgh, the Port Authority of Allegheny County is 
    constructing a five-mile busway to connect rapidly growing markets 
    in the corridor between the city of Pittsburgh and Pittsburgh 
    International Airport. The project includes the rehabilitation of 
    an abandoned light rail tunnel for use by buses, six stations, and 
    six park-and-ride lots. Portions of this system are already open, 
    and it is expected to begin full service through the Wabash Tunnel 
    in December 2004.

<bullet> In Boston, the South Boston Piers Transitway Project will link 
    the South Boston area with regional mass transit services in 
    downtown Boston. It consists of a one-mile tunnel and surface bus 
    operations with three stations. Now under construction, this 
    project is also expected to begin service in December 2004.

<bullet> In Houston, the Regional Bus project is largely operational 
    and is scheduled for full revenue operations in December 2005, with 
    new facilities, intelligent transportation systems technology, 
    transit streets, and HOV lanes.

    The GAO report suggests three reasons for the relatively few BRT 
New Starts projects: (1) Bus Rapid Transit is a relatively new concept, 
and many projects, especially those that have reached the final design 
and full funding grant agreement stage, were chosen before BRT, as we 
know it today, existed; (2) there is a perception among local 
decisionmakers that the public prefers rail service to bus service; and 
(3) some Bus Rapid Transit projects do not fit the fixed guideway, or 
exclusive right-of-way, requirements of the New Starts program and thus 
are not eligible for funding consideration.
    FTA is committed to helping communities overcome these perception 
and information barriers by undertaking a major effort to: Promote the 
benefits of Bus Rapid Transit service elements; compile and share 
information about successful Bus Rapid Transit projects in the United 
States and abroad; and provide technical assistance, guidelines, and 
encouragement to community and transit leaders who are interested in 
Bus Rapid Transit as a means to improve their regular bus service or 
respond to transportation needs in a corridor that require a major 
capital investment. In addition, the Administration is proposing, 
through the President's fiscal year 2004 Budget and its upcoming 
surface transportation reauthorization legislation, several changes in 
the New Starts program that will permit nonfixed guideway Bus Rapid 
Transit and other new, lower-cost technologies to receive New Starts 
funding.
    It is very important to understand that Bus Rapid Transit will not 
be the right solution for every community. Considerations like 
population density, the existence of exclusive rights-of-way, 
centralized employment centers, and the impact of topography on system 
design and construction costs may make light rail, for example, more 
cost-effective than Bus Rapid Transit in a particular community.

Promoting Bus Rapid Transit
    In 1999, the FTA formed the BRT Consortium, consisting of 
communities interested in implementing Bus Rapid Transit. Seven of the 
18 consortium members now have Bus Rapid Transit in their communities: 
Los Angeles, Miami, Honolulu, Boston, Pittsburgh, Chicago, and 
Charlotte. The remaining consortium members all expect to initiate BRT 
revenue operations within the next 4 years. As you may know, Eugene, 
Oregon, is a member of the consortium, and is represented at today's 
hearing by Ken Hamm, General Manager of the Lane Transit District. 
Since 1999,
consortium members have met nine times to discuss specific topics and 
explore solutions to the challenges they face. Any community that may 
be interested in a particular topic or in learning about BRT generally 
is welcome to attend consortium meetings. In fact, FTA maintains a 
mailing list of individuals and organizations that have expressed 
interest in BRT, and sends notices of meeting, workshops, and new 
publications to them.
    FTA also provides technical assistance to consortium members, 
helping them to address specific development and operational 
challenges. In addition, eleven of the consortium members, designated 
as ``demonstration projects,'' have received grants to participate in 
consortium activities, collect data, and conduct BRT program 
evaluations. The information collected will be used to analyze and 
compare the costs and benefits of specific BRT features, including 
ridership, capacity, travel-time savings, and operating costs, and will 
help FTA prepare guidelines and tools for communities to use as they 
examine alternatives and options to improve mobility.
    Other activities sponsored by FTA's BRT research and technical 
assistance program include:

<bullet> The development and delivery of a National Transit Institute 
    workshop entitled ``Exploring the Potential of Bus Rapid Transit,'' 
    which offers transportation professionals and decisionmakers an 
    introduction to BRT, including considerations in planning 
    infrastructure and facilities, service planning, vehicle selection, 
    technology applications, and implementation and institutional 
    issues.

<bullet> The development and execution of a BRT webpage on the FTA 
    public website, which features information about current BRT 
    projects throughout the country, a calendar of upcoming BRT 
    workshops and events, a BRT primer, copies of FTA-sponsored 
    publications, and video clips and photos of BRT systems in 
    operation.

<bullet> A BRT vehicle design competition, which was intended to 
    generate interest in and awareness of the desirable characteristics 
    of future potential BRT vehicles and systems. Four designs received 
    top honors, and 18 additional awards were given for a variety of 
    innovative ideas and vehicle design concepts. Winning entries are 
    also featured on FTA's BRT webpage.

<bullet> A series of BRT publications, including BRT Project Evaluation 
    Guidelines, An Evaluation of the Port of Allegheny's West Busway, 
    BRT Vehicle Demand and Supply Analysis, Bus Rapid Transit and the 
    American Community, and An Analysis of FTA's Bus Testing Program 
    with Respect to Bus Rapid Transit Vehicles, as well as various BRT 
    Workshop Proceedings.

<bullet> Funding and technical assistance to establish the BRT 
    Institute to conduct research and act as a BRT information 
    clearinghouse. The Institute is a partnership between the Center 
    for Urban Transportation Research in Tampa, Florida, and Partners 
    for Advanced Transit and Highways in Berkeley, California.

<bullet> The creation of a computer modeling tool, now in final stages 
    of development, to assist transportation planners in determining 
    the most appropriate BRT elements to address traffic conditions and 
    ridership demand.

<bullet> In conjunction with the Transportation Research Board of the 
    National Academy of Sciences, the publication of ``Case Studies in 
    Bus Rapid Transit'' and the development of BRT planning and 
    implementation guidelines.

<bullet> International meetings and technical tours have been conducted 
    with transit officials in Italy, Switzerland, France, and Britain 
    to introduce United States manufacturers to overseas markets and 
    gather information about successful BRT systems that may be 
    emulated in United States cities. As a result, representatives of 
    Irisbus and Phileas Bus, which manufacture buses used in France and 
    the Netherlands, are engaged in discussions with American bus 
    manufacturers regarding potential partnership opportunities.

    Additional Bus Rapid Transit systems outside the United States that 
may offer significant educational and market development opportunities 
operate in Curitiba, Brazil; Ottawa, Canada; and Bogota, Colombia. In 
operation since 1974, the Curitiba Bus Rapid Transit system--often 
called the ``surface subway''--is widely considered the world's 
preeminent example of Bus Rapid Transit. It offered a revolutionary 
solution for linking downtown to the neighborhoods through exclusive 
traffic lanes, combining an ``express bus only'' middle lane with two 
outer lanes for slower traffic. Curitiba's regional integrated 
transport network consists of 58 kilometers of exclusive bus lanes, 
over 2,000 buses, and 233 ``tube stations'' where passengers prepay 
their fare and board buses via ramps.
    Ottawa's Transitway, which was built in stages between 1978 and 
1996, is a 19-mile bus-only road that goes to the central business 
district, where it connects to exclusive bus lanes on city streets. 
Over 75 percent of passenger bus trips are made using the Transitway. 
The Transitway was constructed largely on rail rights-of-way and was 
designed for possible conversion to rail should future ridership 
warrant. The main Transitway routes use articulated buses with proof-
of-payment fare collection to speed boarding; only one-quarter of the 
riders pay with cash.
    Another success story that the FTA is studying is the Transmilenio 
bus system in Bogota, Colombia. This innovative 38-kilometer bus system 
carries 600,000 passengers a day. Bogota plans to expand the system to 
388 kilometers by 2016.

Proposed Changes in the New Starts Program
    As noted earlier, the GAO found that the development of Bus Rapid 
Transit systems was inhibited by the fact that BRT projects do not 
always fit the fixed guideway, or exclusive right-of-way, requirements 
of the New Starts program. The President's fiscal year 2004 Budget not 
only proposes to grow the New Starts program by $300 million, but also 
incorporates our surface transportation reauthorization proposal to 
expand eligibility for New Starts funding to include new or expanded 
nonfixed guideway corridor-based transportation projects.
    We believe this change will help promote the development of 
commonsense transit solutions, as communities consider major capital 
investments to solve mobility problems in transportation corridors. As 
my testimony today has illustrated, with today's technology--
particularly Bus Rapid Transit--the presence of a fixed guideway is not 
always required to create a cost-effective major new or expanded 
corridor system. Currently, however, by making the inclusion of a fixed 
guideway a fundamental requirement for a New Starts grant, we encourage 
communities to consider only these more expensive alternatives. 
Further, some small and medium-sized communities that would benefit 
enormously from the creation of new transit options simply cannot 
generate enough new riders or travel-time savings to justify a more 
expensive fixed guideway system.
    I want to assure the Committee that, as we develop implementation 
guidelines for this change, we will work closely with Congress and with 
all of our stakeholders. We have no interest in opening the New Starts 
pipeline to what might be characterized as simply the purchase of 
``fancy'' buses or normal bus system expansions; projects must involve 
the creation of a new system that provides substantially enhanced 
levels of service to a corridor or the extension of a current corridor 
system. We believe that policies and guidance can be developed that 
will effectively preserve the intent of the New Starts program, even as 
we make room for new cost-effective solutions. I would also like to 
mention, however, that we have intentionally omitted reference to Bus 
Rapid Transit in our legislative proposal. As we have learned, 
technology changes rapidly, and it is important that we preserve our 
ability to incorporate future cost-effective transportation innovations 
into the New Starts program.
    In the context of the proposed eligibility change, we are proposing 
two additional modifications to the New Starts program. As you know, 
under current law, any project requesting less than $25 million in New 
Starts funding is exempt from the rigorous New Starts evaluation and 
ratings process. Unfortunately, experience has demonstrated that early 
project estimates can be inaccurate. On numerous occasions, project 
sponsors who intend to seek funds without participating in the project 
evaluation process suffer serious set-backs when they determine that 
they do, in fact, require more than $25 million in Section 5309 New 
Starts funding. Moreover, small projects that proceed without adequate 
attention to ridership and financial projections may find themselves in 
financial difficulty. An elimination of this exemption would deter 
project sponsors from dividing corridor transportation systems into 
artificially small segments to avoid the New Starts evaluation process. 
Therefore, we propose to eliminate the $25 million exemption in the New 
Starts program. Under our proposal, any project that seeks Federal New 
Starts funds will be required to participate in the New Starts 
evaluation and rating process.
    At the same time, we recognize that the complexity of New Starts 
projects can vary considerably. Therefore, we are proposing that 
projects requesting less than $75 million be subject to a simplified New Starts process. We would utilize the same evaluation criteria established 
by Congress for projects seeking more than $75 million in funding from New Starts that will focus on ensuring that all projects are merit Federal investment, but will accommodate the streamlined delivery of smaller 
projects.

Conclusion
    Mr. Chairman, we believe that, taken together, these changes will 
help communities select the most cost-effective, commonsense transit 
solutions. Bus Rapid Transit can and should be one of the 
transportation options available to our growing communities. We believe 
that continued Federal investment in the development of this and other 
new transportation technologies holds enormous promise for America, and 
I want to thank you again for the opportunity to discuss this important 
subject with the Committee. I would be pleased to respond to any 
questions the Committee may have.

                  PREPARED STATEMENT OF JAYETTA HECKER
                Director, Physical Infrastructure Issues
                     U.S. General Accounting Office
                             June 24, 2003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  PREPARED STATEMENT OF GARY L. BROSCH

             Chairman, National Bus Rapid Transit Institute
                   Center for Urban Transit Research
            University of South Florida and the Institute of
    Transportation Studies at the University of California, Berkeley
                             June 24, 2003

    Good afternoon, Mr. Chairman and Members of the Committee. I am 
here today on behalf of the National Bus Rapid Transit Institute 
(NBRTI), a collaborative effort between the Center for Urban 
Transportation Research at the University of South Florida and the 
Institute of Transportation Studies at the University of California, 
Berkeley. With me today are Dennis Hinebaugh, Director of the National 
Bus Rapid Transit Institute and Senior Researcher Michael Baltes. Thank 
you for this opportunity to share with you our enthusiasm for Bus Rapid 
Transit and the important role we expect it to have in increasing 
transit ridership with a cost-effective, faster, flexible, and high-
quality mass transit service in many cities throughout America.
    My testimony today will provide you with information on the 
National Bus Rapid Transit Institute, important lessons learned about 
BRT, and our suggestions for your consideration on Federal issues that 
need to be addressed related to BRT.

NBRTI
    The National Bus Rapid Transit Institute was established in 2001 
with the mission to ``facilitate the sharing of knowledge and 
innovation for increasing the speed, efficiency, and reliability of 
high capacity bus service through the implementation of Bus Rapid 
Transit systems in the United States.''
    Multiple partners currently fund the National Bus Rapid Transit 
Institute. The Federal Transit Administration, the Federal University 
Transportation Centers Program and match from State DOT research funds, 
has provided initial funding of program startup and information sharing 
activities. The NBRTI also has smaller contracts to assist in the 
development of BRT programs in Minneapolis, Chicago, Riverside, and 
soon in Miami and Tampa. Continued and expanded funding for the NBRTI 
is being requested as a part of the TEA-21 reauthorization.
    Current activities of the NBRTI program include:

<bullet> Evaluating BRT projects in Orlando and Miami

<bullet> Assisting in the administration of the 18 BRT Consortium 
    member programs: Boston; Charlotte; Cleveland; Dulles Corridor; 
    Eugene-Springfield; Hartford-New Britain; Honolulu; Miami; San 
    Juan; Santa Clara County; Alameda & Contra Costa County; Albany; 
    Chicago; Los Angeles; Louisville; Pittsburg; Montgomery County 
    Maryland; Las Vegas

<bullet> Developing and implementing a BRT Peer-to-Peer technology 
    transfer program

<bullet> Publishing the ``BRT Quarterly'' newsletter

<bullet> Maintaining the ``NBRTI.org'' website

<bullet> Presentations at workshops

<bullet> Industry assistance serving as the Chair of the TRB BRT 
    Subcommittee, member of the APTA BRT Taskforce, moderators/
    presenters at national and international BRT conferences.

Lessons Learned
    The first lesson that we have learned about BRT is the difficulty 
in achieving consensus on its definition. The design and operation of 
BRT systems are vastly different from one another. The very nature of 
the flexibility in design and operations of BRT leads to the problem of 
creating a precise definition. While some BRT systems are similar, no 
two are alike. Los Angeles' BRT system is a highly effective yet very 
low cost system with buses operating in mixed traffic (that is, without 
special exclusive bus lanes). The buses themselves are clean fuel, 
conventional transit vehicles branded with a bright red paint scheme to 
differentiate them from standard local bus service. With their 
intelligent traffic signal system and high-frequency service (demand-
based headways offering 1.5 minute service in the peak of the peak), 
they are able to significantly reduce overall trip time by as much as 
30 percent on the Whittier-Wilshire and Ventura corridors. At the other 
end of the BRT spectrum is Las Vegas where they will be using a newly 
designed LRT-like vehicle which will travel using optical guidance on a 
fixed path to create a system that looks and functions much like a 
modern light rail system.
    We believe flexibility is a key factor in the success of BRT and a 
flexible definition will lead to BRT systems being designed to best 
respond to the specific needs of a community rather than systems 
designed simply to qualify for Federal funding.
    Another lesson learned is that even in auto dominated Los Angeles, 
people will ride a bus system that is fast, efficient, and convenient. 
The old myth that people will ride trains but not buses is based on a 
paradigm of trains being clean and fast and buses being dirty and slow. 
BRT has changed that paradigm! Success stories in the United States and 
abroad have shown that BRT can be a highly praised and successful form 
of public transit. Fast, convenient, and frequent service are what 
transit users want and the BRT systems provide all of these factors in 
a very cost-effective manner.
    A surprising and important lesson we have learned is that nonusers 
of transit respond positively to BRT systems. Let me tell you why this is 
the case and why it is important. Non-transit users like BRT systems because 
they are perceived as being cost-effective and highly utilized. No one 
likes to see near empty buses or trains. BRT systems operating with 
very frequent service, with mostly full buses, in a cost-effective 
manner are pleasing even to the nonuser. Given the relatively low 
percentage of taxpayers riding transit, it is important that nontransit 
users perceive that their tax dollars are being used wisely. Without 
the support of nonusers, local funding commitments would not be 
possible. With the support of BRT system users and nonusers, local 
communities are finding BRT a truly win-win alternative.

Future Federal Role in BRT
    Federal transportation policies and funding programs have played a 
tremendous role in shaping the form and content of America's 
transportation systems. From the creation of the Interstate System 
during the Eisenhower Administration, to the Federal New Starts program 
continued in current TEA-21 legislation, you, Members of Congress, 
provide direction to our transportation future. We believe the 
potential of BRT in America is so compelling as to warrant significant 
consideration in your deliberations on the reauthorization of TEA-21. 
Current Federal law provides little stimulus for BRT systems and, as 
you have heard from others, current Federal law with respect to New 
Starts actually inhibits development of lower-cost BRT systems.
    As promising as BRT is, it cannot reach its full potential without 
your assistance in several areas.

Research and Technical Assistance
<bullet> Market research, facilities/operations planning, routing 
    alternatives, ITS/APTS, transit signal priority, vehicle design, 
    vehicle propulsion, vehicle guidance, peer-to-peer assistance.

Evaluation of BRT Systems
<bullet> Determine the effects and lessons learned of the various BRT 
    demonstration projects through a detailed evaluation process.
<bullet> Through this detailed evaluation process, the various BRT 
    projects will serve as learning tools and models for other locales 
    throughout the United States.
<bullet> Characteristics to be examined include the degree to which 
    ridership increases due to improved bus speeds, schedule adherence, 
    and convenience; the effect on auto traffic; the effect of each of 
    the components of BRT on bus speed and other traffic; the benefits 
    of ITS/APTS applications to BRT projects; and the effect of BRT on 
    land use and development.

Consortium Members
<bullet> BRT consortium members received modest funding ($50,000) to 
    assist their efforts to learn about the potential of BRT of their 
    areas. This is an excellent program to further interest in BRT, 
    which should be continued and expanded.

Method of Federal Funding
<bullet> Three major options exist for enhanced Federal funding of BRT 
    systems. First, a new program can be created to fund BRT systems in 
    a similar manner as specific programs targeted to new rail systems, 
    bus systems, etc. Second, the current New Starts program can be 
    modified to better incorporate eligibility of BRT systems. Third, 
    the Bus Capital Program (Sec. 5309) can be expanded to provide 
    funding for BRT systems.
<bullet> Each of these options has strengths and weaknesses. Caution 
    must be taken to avoid unintended consequences of the selected 
    option. For example, including BRT in the bus program without 
    additional funding could easily deplete funds needed for routine 
    replacement. Alternatively, creation of a new program could result 
    in local areas pursuing BRT systems simply because the funds are 
    available.
<bullet> If BRT is to be included in the New Starts program, a number 
    of details need to be examined including the requirement for 
    ``fixed guideway,'' the required local match (50/50 versus 80/20), 
    and the MIS requirements. Clearly, the flexible definition of BRT 
    will be an issue in any Federal funding alternative.

    In conclusion, Bus Rapid Transit offers tremendous potential to 
increase transit ridership in a cost-effective manner. Historically, 
Congress has provided leadership in shaping our transportation system. 
BRT is an idea whose time has come. We
encourage Members of this Committee to continue to exert this 
leadership in stimulating additional research, planning, funding, and 
implementation of BRT systems in the United States.
                               ----------

                 PREPARED STATEMENT OF KENNETH P. HAMM
                 General Manager, Lane Transit District
                             Eugene, Oregon
                             June 24, 2003

    Mr. Chairman, thank you for the invitation to testify here today. 
We appreciate your interest in Bus Rapid Transit, and thank you for 
considering our opinion as you prepare to write the transit portion of 
the next surface transportation bill.

Background
    Lane Transit District is headquartered in Eugene, Oregon, and 
serves the central Lane County area. Eugene and its neighbor city of 
Springfield, together with the immediate suburbs, have a population of 
approximately 230,000 people. We are about 110 miles south of Portland, 
and Eugene is the home of the University of
Oregon and the Fighting Ducks.
    Lane Transit District has been recognized as one of the top transit 
systems in the country, and we consistently rank very high in per 
capita ridership and service level. We attribute our success to the 
implementation of innovative services and programs that have generated 
a positive response from the community.
    In 1985, Lane Transit District was the first major transit system 
to equip all of its buses with lifts for people in wheelchairs. This 
was long before that became a requirement of the American with 
Disabilities Act. We also were a pioneer in the concept of what we call 
group passes. It started with the University of Oregon in 1987, when an 
agreement was reached whereby all students pay a transit fee as part of 
their student fees, and then can ride our system simply by showing 
their student ID. There are now approximately 30 organizations in our 
community, both public and private, that use group passes, and the 
program has been emulated by other transit districts around the 
country.
    Eight years ago, members of our board of directors began to 
consider how our system could be improved further. How could we make a 
significant step up in the quality of our service in order to attract 
more riders? How could we guarantee on-time performance in the face of 
increasing traffic congestion? How could we control operating costs 
that were increasing annually due to congestion-related delays to our 
buses? Many in the community suggested light rail, and those 
suggestions led to a rail study. The conclusion was obvious: We are too 
small a community to support the investment in rail infrastructure. 
However, not willing to accept that as a final answer, the board 
directed staff to investigate the feasibility of designing our system 
to emulate as closely as possible the service characteristics and image 
of a rail system. That became Bus Rapid Transit, or BRT.

BRT Defined
    BRT has taken on a number of forms within the country. In fact, 
that is one of the strengths of BRT: It has the flexibility of design 
to allow it to meet varying operating environments and political 
considerations. BRT can be considered a combination of a number of 
potential elements, including:

<bullet> Exclusive transitways to separate buses from traffic

<bullet> Transit signal priority at intersections

<bullet> Improved stops and stations

<bullet> Fewer stops per mile

<bullet> Off-board fare collection

<bullet> Level boarding onto low-floor buses

<bullet> Automated guidance, including precision docking at stations

<bullet> Real-time passenger information

<bullet> Tram-like, low-emission, quiet vehicles

<bullet> Rail-like image

    Most of these elements have been proven in transit systems here and 
around the world. The innovation of BRT is to combine the elements into 
a package of improvements across the country, BRT systems are being 
built using different combinations of these elements. We believe that 
it is important to have a very complete BRT system, for only in that 
manner can it truly emulate a light rail system. We believe that 
creating a rail-like image of the system is a key, and can be achieved 
by the design of exclusive transitways, improved stations, buses that 
have a tram-like appearance, and marketing.
    LTD took the BRT concept to the community, to city councils, the 
board of county commissioners, and to the Oregon congressional 
delegation. The response was positive, and the BRT strategy is now a 
key element of the region's adopted transportation plan. The first 
phase of our Bus Rapid Transit project was authorized in TEA-21. Over 
time, as we worked to develop, define, and design our project, we 
became recognized as innovators and leaders in this new mode.
    There have been a number of definitions proposed for BRT. One that 
we like is as follows:
        Bus rapid transit (BRT) integrates capital and operational 
        improvements with transit-supportive land use planning to 
        create a faster, higher quality mode of travel than traditional 
        bus service. BRT projects demonstrate permanence by using 
        exclusive busways over at least half the BRT corridor and enjoy 
        special treatment at intersections through traffic signal 
        priority. BRT systems employ advanced fare collection and other 
        techniques to reduce dwell times.
    BRT can fulfill a number of needs in communities around the 
country. For the medium-sized cities like ours, it provides an 
affordable rapid transit option. In our larger urban areas, it can be 
used to complement rail systems.

LTD's BRT Project, Phase 1
    Our entire transit system is being planned around the BRT concept. 
BRT lines will operate on major corridors, with small buses circulating 
in neighborhoods, connecting those neighborhoods with the BRT line and 
with neighborhood shopping areas, schools, and employment areas. There 
will be a series of park and ride lots that provide access to the BRT 
line.
    Like light rail, our BRT system is being built one corridor at a 
time. The first phase of our project is a four-mile-long segment 
connecting the downtowns of
Eugene and Springfield. It follows a corridor that is our most heavily 
traveled arterial and serves the University of Oregon and a major 
regional medical facility. The BRT design for this corridor has 65 
percent exclusive transitways and features transit signal priority, 
queue jumpers, median stations, off-board fare collection, and level 
boarding.
    A key question that we are currently deciding is the vehicle to use 
for the BRT service. The ideal vehicle would be low-emission, quiet, 
have an entirely low-floor design, have automated guidance, have doors 
on both sides, and have a tram-like appearance. Vehicles with these 
characteristics are in development in Europe. We have not found an 
American manufacturer able to produce such a vehicle for us in the 
needed time frame.
    The design and construction cost for the Phase 1 corridor (without 
the vehicles) is currently estimated to be $16 million, or $4 million 
per mile. This is about 10 percent of the cost of a moderately priced 
light rail line.

Next Steps
    Construction is about to begin on the Phase 1 corridor, with 
implementation planned for early 2005, though the date likely will 
depend on the delivery date for the vehicle. When the Eugene and 
Springfield City Councils approved the Phase 1 corridor, they both 
requested that LTD immediately begin planning the next corridors, 
recognizing the greatest benefit of BRT, like light rail, is when there 
are multiple corridors that start to form a system. LTD is now in the 
planning stage for the next two corridors, and is seeking authorization 
for one of the corridors as part of the transportation bill. This is 
where you become very important to us.
    Not only is the funding for the project important to us, but the 
match ratio is key. A transit system of our size has difficulty 
providing local match for large (for us) capital projects. Anything 
larger than a 20 percent local match would significantly slow the 
development of our BRT system
    We believe very strongly that there needs to be some recognition of 
less expensive fixed guideway projects, like BRT, in the structure of 
your bill. The Administration proposed in its Fiscal Year 2004 Budget a 
``small starts'' subcategory of New Starts. The small starts would have 
a more streamlined review and approval process to reflect their lower 
level of investment when compared to major new rail starts. We assume 
that the small starts subcategory also will be included in the 
Administration's reauthorization proposal. This subcategory may be 
acceptable if it is not too inclusive. Projects in such a category 
should be limited by total cost, not just by Federal share costs, in 
order to ensure that they truly are smaller capital investments.
    The Administration proposed in its Fiscal Year 2004 Budget 
recommendation a streamlined regulatory approach for these ``small 
starts'' projects. This is very appropriate, and we hope that you will 
impress upon the FTA the need to achieve a much simpler process than 
currently exists for New Starts. This will be easier to accomplish if 
the total size of the project is the determiner for this subcategory, 
not just how much the Federal share will be.
    I had mentioned our difficulty in obtaining the appropriate BRT 
vehicle for our needs. Some funding or incentives for American vehicle 
manufacturers should be a part of your bill. This could be in the form 
of funds for research and development and engineering, or perhaps tax 
incentives for capital spent on redesign or retooling.
    The FTA has been a good partner with us, and we look forward to 
working with them and with you as we develop our Bus Rapid Transit 
system. Thank you again for inviting us today.

                               ----------
                PREPARED STATEMENT OF OSCAR EDMUNDO DIAZ
          Enrique Penalosa's Assistant at New York University
                Administrative Director at the Institute
               for Transportation and Development Policy
                             June 24, 2003

ABSTRACT
    Mr. Chairman and Members of the Committee, my name is Oscar Edmundo 
Diaz, and I am the Assistant to Enrique Penalosa, former Mayor of 
Bogota and the Administrative Director of the Institute for 
Transportation and Development Policy. I thank you for the opportunity 
to testify before the Committee on Banking, Housing, and Urban Affairs 
on the Bus Rapid Transit system we implemented in Bogota, Colombia. I 
hope this testimony provides useful information for the reauthorization 
of the Transportation Equity Act for the 21st Century (TEA-21) and the 
inclusion of BRT programs.
    Bogota is a 7 million inhabitant city, in which growing car use 
began to deteriorate urban quality of life. This was compounded by a 
need for a better mass transportation system. Yet all it had was a 
chaotic fleet of 25,000 almost individually owned buses. Most buses 
were old and polluting. Drivers worked more than 12 hours daily; racing 
against other buses for passengers, which led to accidents and the 
practice of dropping passengers in the middle of the road. Drivers 
would even block the three lanes of an arterial road so as to impede 
buses coming from behind from overtaking them. Due to the congested and 
chaotic system, buses were very slow. This system was bad for the city, 
for passengers, for drivers, and even for bus owners, as it was not a 
profitable system. Nonetheless, a majority of citizens were forced to 
take such buses for their daily transport. A version of this exists in 
most developing country cities.
    Mayor Enrique Penalosa created from scratch a bus-based transit 
system that transformed the quality of life in our city: TransMilenio. 
Learning from Curitiba, TransMilenio encompassed specialized 
infrastructure and permanent supervision provided by local government 
agencies, and organized operations and advanced fare collections 
systems under contract with private firms. This Bus Rapid Transit 
system has changed Bogotanos lives, not only as mass transportation 
system, but also as a renewal of the city.

BUS RAPID TRANSIT DEFINITION
    A Bus Rapid Transit is essentially a surface metro system that 
utilizes exclusive segregated bus lanes. A Bus Rapid Transit (BRT) is 
high-quality, and customer-
orientated transit that delivers fast, comfortable, and cost-effective 
urban mobility.
    The main characteristics of BRT systems include\1\:
---------------------------------------------------------------------------
    \1\Wright, Lloyd. ``Bus Rapid Transit, Sustainable Transport: A 
Sourcebook for Developing Cities,'' GTZ, Germany, 2003.

---------------------------------------------------------------------------
<bullet> Segregated busways;

<bullet> Rapid boarding and alighting;

<bullet> Clean, secure, and comfortable stations and terminals;

<bullet> Efficient prepaid ticket;

<bullet> Effective licensing and regulatory regimes for bus operators;

<bullet> Clear and prominent signage and real-time information 
    displays;

<bullet> Transit prioritization at intersections;

<bullet> Modal integration at stations and terminals;

<bullet> High quality public pedestrian spaces;

<bullet> Clean bus technologies;

<bullet> Sophisticated marketing identity; and

<bullet> Excellence in customer service.

    When Enrique Penalosa became the Mayor of Bogota, he discovered a 
Transportation Master Plan funded by the Japanese International 
Cooperation Agency (JICA). The plan's main proposals to solve Bogota's 
traffic jams consisted of a metro system and elevated highways. At this 
time, Bogota had one busway on Caracas Avenue, which did not work well. 
However, Mayor Penalosa also discovered a contract to build another 
busway like the one in Caracas Avenue on Calle 80. This contract was 
going to be paid partially with a World Bank loan.
    Avoiding or minimizing conflicts is one reason why many developing 
country cities prefer to invest in much more expensive rail systems 
than go to the trouble of putting bus-based transit in place. Some 
other reasons to choose rail include:

<bullet> Rail can have a larger capacity, though TransMilenio moves 
    more passengers per kilometer than most rail systems. Bus systems 
    can also install a parallel line nearby at a low cost and nearly 
    duplicate capacity.
<bullet> Rail systems project an image of modernity. In cities sated 
    with disastrous bus systems, citizens at first might not want buses 
    and prefer an advanced rail model.\2\
---------------------------------------------------------------------------
    \2\Penalosa, Enrique. Rethinking Third World Cities Transport. UITP 
55th Conference, Madrid, May 2003.

    However, Penalosa decided not to build a metro system. Even if a 
one or two rail lines are put in place, buses will remain the only 
possible means to provide public transport to the majority of citizens 
of a developing country city. Rail system costs are very high. No 
subway in a developing country has cost less than $100 million per 
kilometer, a dubious investment in cities where many do not have even 
sewage, schools, or access to parks. For the cost of one subway lane, 
it is possible to provide quality bus rapid transport to a whole city 
(Graph 1). Bus-based transit systems have the advantages of lower 
investment and operational costs. They are more liable to receive 
private investment and to be operated privately. Bus systems are more 
labor intensive, an advantage in developing countries. It is easier to 
partially or totally build bus systems than train systems in developing countries. Finally, bus systems are more flexible, an important asset in 
developing countries dynamic cities. As city attractions shift, it is 
easier to adjust a bus system than a rail one.
GRAPH 1. Panama City map comparing a Rail System and a BRT System with 
        same resources\3\
---------------------------------------------------------------------------
    \3\Prepared by Lloyd Wright for the Institute for Transportation 
and Development Policy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    With the money that Bogota would pay in 1 year of interest for a 
loan to build the metro, Mayor Penalosa built 155 miles of bicycle 
paths that currently move 5 percent of the population. In January 1998, 
only 0.5 percent of Bogotanos used the bicycle as a means of 
transportation.
    The Washington Metro cost about US$11 billion for 166 kilometers 
and currently moves 824,000 passengers in a weekday. Comparatively, the 
cost for the Metro is more than $66 million per kilometer and moves 
almost the same number of people that TransMilenio moves over 41 
kilometers at $5 million per kilometer. Not including the operational 
costs (the difference is enormous between the two systems), it is clear 
that in a developing city like Bogota, with so many other needs for the 
poor, a different solution needed to be taken.
    On the other hand, a busway like the one we had on Caracas Avenue 
was not the solution either. A new system--efficient, affordable, and 
comprehensive--needed to be created. That is what makes TransMilenio a 
successful project. It has all the characteristics that describe a 
potential BRT system. All of them in conjunction make possible an urban 
renewal. Some often overlooked aspects include the improvements in 
public spaces and sidewalks, which serve the system by making it safer 
and acting as feeders.
    One of the first decisions that Penalosa took was to stop the 
busway that was going to be built on Calle 80 and change the terms of 
the World Bank loan to build an exclusive bus corridor. The old busway 
did not have good public pedestrian access, no prepaid tickets, no 
stations. It was only two lanes in each direction reserved for the use 
of buses, which did not have schedules. I want to emphasize this point: 
Sometimes a BRT system is thought to be just exclusive lanes for buses 
ignoring the other key components, which result in a bad quality system 
that does not function efficiently with the desired impacts.

THE BRT SYSTEM IN BOGOTA: TRANSMILENIO
    TransMilenio is a Bus Rapid Transit (BRT) integrated system that is 
high capacity and low cost. The TransMilenio system was designed and 
developed under the principle of respect:

<bullet> For life, by reducing fatalities due to traffic accidents and 
    also reducing harmful emissions;

<bullet> For users' and their time: by reducing travel time, on average 
    by 50 percent;

<bullet> For diversity: By offering full accessibility to young, 
    elderly and handicapped, poor, among others;

<bullet> For quality and consistency: By using advanced transit 
    technologies and providing a world-class system city wide at all 
    times; and

<bullet> For economy and efficiency: By creating a system affordable by 
    users and the city that is also good business to private operators. 
    Two or four central lanes in main arteries are given exclusively to 
    the system for buses to operate without any other traffic. Central 
    lanes and not lanes next to sidewalks are used in order to avoid 
    traffic often generated from driveway entrances, gas stations, and 
    minor road intersections. As passengers board the buses at 
    stations, central lane use also allows having one station serve 
    both bus directions, instead of having two at each side of the 
    road. Articulated 165-passenger high-platform buses stop at 
    stations and open their doors simultaneously with station doors. 
    Since passengers have
    already paid or have been charged through a contact-less card at 
    the station
    entrance and the station and the bus floors are at the same level, 
    a hundred
    passengers can come out and a hundred more board the bus in 
    seconds. The bus corridors are fully accessible to the handicapped. 
    Passengers reach the station either by an elevated pedestrian ramp 
    or crossing the road supported by a traffic light.

    Feeder buses in regular streets with shared traffic bring 
passengers to the trunk lanes to which they can transfer at no extra 
cost. One ticket permits one passenger to change from a local-stops bus 
that makes all stops, to an express one that only stops every 5 or 10 
stations; passengers can also transfer from one line to another. Cost 
is the same regardless of trip length. As most lower-income citizens 
tend to live in the outskirts and make longer trips, they make more use 
of feeder buses and are subsidized by higher income citizens that make 
shorter trips.
    The integrated system has 470 articulated buses operating in 41 Km 
with exclusive corridors with 61 stations, and 235 feeder buses in 309 
Km mixed traffic local streets. In its second year of operations 
(2002), it transported 207 million paid passengers, with a maximum of 
792,000 passengers per day and 35,000 passengers per hour per 
direction. The long-term plan envisions a total of 388 Km of exclusive 
lanes, from which 40 Km are under construction to be in operation in 
2003-2005.
    TransMilenio is a nonsubsidized system, wherein all operating costs 
are recovered through the fares collected. The TransMilenio ticket 
costs US$0.36 and that price covers all costs, except road 
infrastructure and stations. It is considered evident that since the 
government pays for road infrastructure for private cars, it must pay 
for roads used for public transport as well.
    TransMilenio is a public-private partnership. Private contractors 
work in concert with TransMilenio S.A., the local municipal agency. 
TransMilenio S.A. manages bidding processes and controls the system 
operation but receives only 4 percent of the system's income. Private 
contractors who operate the buses share in the system's income per bus-
kilometer. A separate private contractor is in charge of ticketing and 
money collection, while another private company is responsible for 
distributing the revenues to all contractors and the municipal agency. 
Efforts were made to include traditional bus operators into the new 
system. In order to participate in the bidding process to provide and 
operate buses, companies must include traditional bus operators with a 
significant ownership share. Also, before an articulated bus is put 
into service it must demonstrate that its owners have bought and 
scrapped 7 traditional buses.
    A local 25 percent tax on gasoline, of which 15 percent goes to 
TransMilenio infrastructure, support the system's further expansion. 
The national government contributes funds as well (US$1,250 million 
between 2000-2016) and it is promoting and now funding similar systems 
in other Colombian cities (Barranquilla, Bucaramanga, Cali, Medellin, 
and Pereira).
    An important effort was made for citizens to identify TransMilenio 
as a completely different, high-quality transport. Its name, the buses' 
color, and the adjacent quality public space containing sidewalks, 
trees, lighting, and benches were carefully considered factors in order 
to make the system attractive to all socioeconomic levels. As it is 
much faster today to use TransMilenio than private cars, many car 
owners are leaving their cars at home and using TransMilenio. Currently 
11 percent of TransMilenio users are car owners.
    TransMilenio has been programmed to continue expanding every year 
until 2016 (Graph 2). By then, more than 80 percent of Bogota's 8.5 
million citizens will live less than 500 meters away from a 
TransMilenio line. Bicycle parking stations will begin to be created 
soon near TransMilenio stations so as to facilitate that modal 
interchange.

GRAPH 2. Projected Bus Corridors by 2016 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

ORGANIZATIONAL STRUCTURE
    Operations are contracted with private companies with conditions 
set forth in concession contracts for TransMilenio bus line services or 
operation contracts for feeder buses (Graph 3). Private operators are 
consortiums of traditional local transportation companies, associated 
with national and international investors. Operators are selected 
through open bidding processes, and they are in charge of bus fleet
acquisition, operation, and maintenance, and hiring drivers, mechanics, 
staff, etc. They are paid as a function of the kilometers served by 
their buses.

GRAPH 3. System's Structure 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

THE PUBLIC ENTITY
    Transmilenio S.A., a public company created in October 1999, is the 
owner of the system. Its structure and staff are small--70 employees--
given that it develops its charter through third parties, focusing its 
activity in planning the system and supervising the contracted 
activities. Its operation is mainly funded with 4 percent of the fare 
revenues, as well as ancillary activities, like renting areas for 
commercial advertising and providing technical assistance services.\4\
---------------------------------------------------------------------------
    \4\Hidalgo, Dario. TransMilenio: ``A High Capacity-Low Cost Bus 
Rapid Transit System developed for Bogota, Colombia. UITP 55th 
Conference, Madrid,'' May 2003.
---------------------------------------------------------------------------
    The company operates a Control Center, equipped with 6 
workstations, each able to control 80 articulated buses, which allows 
planning and real time supervision of bus operations. Each bus has a 
logic unit connected with a GPS, the odometer and the door opening 
system. The logic unit reports the location of the bus each 6 seconds 
with a 2 meter precision. The control operators have a monitoring 
screen for each service in schematic display and a digital map for 
physical location of the buses. The software is able to verify schedule 
compliance, giving the controllers the opportunity to make demand and 
supply adjustments in real time.
    The construction of the corridors, stations, and garages is done by 
the City's Institute for Urban Development (IDU). For the Phase I, the 
city built three bus corridors covering 41 Km, 4 terminal stations, 4 
intermediate integration stations, and 53 standard stations. 
Additionally, the city built 30 pedestrian overpasses, plazas, and 
sidewalks.
    Total investment was US$213 million, funded with a local fuel 
surcharge (46 percent), general local revenues (mainly from a capital 
reduction from the partially privatized power company (28 percent), a 
loan from the World Bank (6 percent), and grants from the national 
government (20 percent).

BUS OPERATION
    The system operates with the correct number of buses to cover the 
demand with very efficient planning and centralized control. The system 
includes exclusive bus lanes (express and local) and feeder services. 
Express services only stop at designated stations. Local services stop 
at all the stations along their route. This combination allows for high 
capacity (buses use different stations to stop), better service to 
users (less stops), and better use of the bus fleet (more cycles per 
day). Feeder services attend to the periphery of the city, with full 
integration to the exclusive bus lane services.
    Exclusive bus lane services use low platform articulated buses with 
a capacity of 160 passengers and advanced characteristics: Pneumatic 
suspension, automatic transmission, and state-of-the-art buses (diesel 
or CNG). New or recent model buses are used in feeder lines, with a 
capacity up to 80 passengers each.

FARE COLLECTION
    Fare collection is provided by a private concessionaire selected 
through an open bidding process. Money from fare collection is 
deposited daily in a trust fund, which is in charge of paying the 
system operators.\5\
---------------------------------------------------------------------------
    \5\Hidalgo, Dario. TransMilenio: A High Capacity-Low Cost Bus Rapid 
Transit System developed for Bogota, Colombia. UITP 55th Conference, 
Madrid, May 2003.
---------------------------------------------------------------------------
    TransMilenio uses a prepaid scheme. Passengers use contact-less 
electronic cards to access stations where they load the buses through 
multiple doors. The fare collection system includes producing and 
selling electronic cards, acquiring, installing, and maintaining 
equipment for access control and validation, information processing, 
and money handling.
    The fare is US$0.36 per trip (includes feeder service and any bus 
change) and totally covers capital investment, operation, maintenance, 
and profit for the bus fleet and ticketing system operators. It also 
covers supervision and control of the system; administrative costs of 
the trust fund used to deposit the revenues; and the stations cleaning 
and maintenance (Graph 4).

GRAPH 4. Revenue Distribution\6\
---------------------------------------------------------------------------
    \6\Information provided by TransMilenio S.A.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
LESSONS FOR PHASE II
    Phase II (Graph 5) includes three exclusive corridors that will add 
40 more kilometers, 60 stations, including 3 terminals and 3 
intermediate integration stations (2 exclusive busway connections and 1 
feeder-exclusive busway), 335 new articulated buses through 3 
operators. Expansions will be completed in the first quarter 2005, 
increasing daily passengers for the whole system to 1.5 million. There 
are several enhancements in provided infrastructure from Phase I to 
Phase II, which can be summarized as follows\7\:
---------------------------------------------------------------------------
    \7\Information provided by TransMilenio S.A.


------------------------------------------------------------------------
                                 Phase I                 Phase II
------------------------------------------------------------------------
Design horizon           10 year                  20 year

Type of contract         Mainly design-build      Build only at fixed
                          using unitary costs      total cost; includes
                                                   financing for NQS and
                                                   Suba corridors.

Coverage                 One-two busway lanes,    One-two busway lanes,
                          two-four general         two-four general
                          traffic lanes per        traffic lanes per
                          direction; not always    direction; always
                          including public         including public
                          space.                   space.

Maintenance              Not included             5 year

Interchanges (bus and    Three (simple)           Five (complex)
 general traffic)

Interchanges             None                     Two including tunnels
 (passengers)                                      to connect stations

Pedestrian overpasses    27 (not always with      39 (always with public
 and public space         public space provided)   space for ramps)

Land acquisition         300 properties (Calle    1,200 properties
                          80) plus areas for
                          terminals and depots
                          (5 plots)
------------------------------------------------------------------------

    Due to experience gained in Phase I, the need to better distribute 
expenses and the desire to scrap more obsolete buses, some 
modifications to the first phase contracts were introduced:

<bullet> Responsibility for the cleaning and safety of the new stations 
    were assigned to new operators.

<bullet> The local authority had more participation in the system 
    revenues.

<bullet> Incentives were given to include owners of 1 or 2 buses as 
    shareholders of the operator companies with a minimum of 10 percent 
    of the shares (points were awarded to those that increase the 
    offering, resulting in 21 percent of owners participating and close 
    to 4,000 shareholders).

<bullet> Requirement to scrap at least 6 obsolete buses before 
    introducing a new, articulated bus was mandated (points were 
    awarded to those that increase the offering, resulting in a 7.1 
    average. In Phase I, only 2.7 buses had to be scrapped).

    There were also some improvements in the bus typology, including 
weight sensors using the bus suspension, electronic boards inside the 
buses for user information, among others.

GRAPH 5. Bogota map with TransMilenio Phase 1 and 2 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

OPERATIONAL RESULTS
    By May 2003 with 41 kilometers and 470 articulated buses and 235 
feeder buses in operation, the demand was 792,000 passengers/weekday. 
Minimum frequency was 2 minutes (peak) and maximum frequency was 6 
minutes (nonpeak). In addition, there were 45 feeder services with a 
minimum frequency of 3 minutes (peak).\8\
---------------------------------------------------------------------------
    \8\Information provided by TransMilenio S.A.
---------------------------------------------------------------------------
    TransMilenio's fare collection system has 90 selling booths, 359 
turnstiles, and approximately 1,300,000 smart contact less cards. Daily 
revenue is around $270,000.
    Commercial speeds of traditional public transit were 12 Km/h and 18 
Km/h on Calle 80 and Avenida Caracas, respectively, before system 
implementation. These speeds have increased to 26.7 Km/h in average for 
the different exclusive bus lane services.
    One of the most important indicators is that 11 percent of 
TransMilenio's riders are car owners.

IMPACT ON CITIZENS' LIFE
    A comparison before and after TransMilenio indicates an important 
reduction in accident and air pollution levels. The decrease in 
injuries due to traffic accidents in the system corridors was 89 
percent for fatalities and 83 percent for injuries (Graph 6).
GRAPH 6. Traffic Accident Comparison\9\
---------------------------------------------------------------------------
    \9\Information provided by Bogota's Department of Transit and 
Traffic and Metropolitan Police Department. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is an important reduction in the daily averages of some 
pollutant levels according to a monitoring station close to Caracas 
Avenue corridor. Noise has been reduced by 30 percent (Graph 7).
GRAPH 7. Air Quality Comparison\10\
---------------------------------------------------------------------------
    \10\Information provided by Bogota's Department of Environment 
(DAMA).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The increase in speed allows a 32 percent reduction in average trip 
times for the users of the system. This has been reflected in user 
perception of the system: 83 percent of the persons answering a poll in 
March 2002 indicated that fast service was the main reason for using 
TransMilenio and that 37 percent spends more time with their family 
members. Most users of TransMilenio have gained more than 300 hours per 
year to themselves.
    TransMilenio is fully accessible for users with disabilities, 
elderly, youngsters, and pregnant women. About 1 percent of the users 
(7,500 persons per day) are among these categories of users. There are 
guides in the stations that provide information and support to all 
types of users.
    The system has very high acceptance levels as a result of the very 
strict standards required to build the infrastructure and to operate 
the articulated and feeder buses. The satisfaction poll in April 2002 
showed that 78 percent of the respondents rate the system as being good 
or very good.

CONCLUSIONS
    TransMilenio is part of a structural change to the transport 
systems in Bogota. The first 30 months of operation demonstrate the 
great possibilities for this system to provide efficient and high 
quality mass transportation at a very low cost for the users and the 
government. It also shows that it is possible to introduce innovative 
private participation mechanisms, particularly from traditional private 
providers, under conditions that ensure sustainability and 
profitability of the service.
    Project implementation was very fast. The project changed from a 
well-defined but general idea to commissioning in 36 months with Phase 
I being completed in a total of 48 months. This was possible thanks to 
a strong political will, adequate financial support for infrastructure 
development, and a lot of work from a committed and enthusiastic 
technical team.
    A learning process has been applied in the system expansion: Better 
infrastructure with innovative financing mechanisms; more participation 
of the city administration in the system revenues with a transfer of 
some responsibilities; inclusion of displaced bus owners; better 
environmental standards; new operators of bus lines and fare collection 
systems, among others. The system expansion shows that the provision of 
a high quality transit system at a low cost is a continuous process. 
The expansion is expected to continue, due to the high acceptance 
levels by the users and the population at large and its ability to 
provide reduction in travel time, accidents, and pollution.
    Mr. Chairman, from my own experience in Bogota and with all respect 
I recom-
mend the reauthorization of the Federal Transit program including the 
support of BRT systems in the United States and would like to finish my 
intervention telling that from beginning with an extremely negative 
self-image, Bogota went to become a city with a sense of belonging and 
confidence in a better future thanks to the implementation of a 
different city model and particularly the TransMilenio. It comes from 
successful experiences elsewhere, an appraisal of our differences and 
aspirations, and a realistic look at our possibilities. Our proposed 
model is neither tech-
nologically sophisticated, nor economically demanding. It requires 
however political
decisions aimed at truly making public good prevail.
    Thank you again and I will be pleased to answer the questions you 
might have.

ATTACHMENTS
BOGOTA FACTS\11\
---------------------------------------------------------------------------
    \11\Hidalgo, Dario. TransMilenio: A High Capacity-Low Cost Bus 
Rapid Transit System developed for Bogota, Colombia. UITP 55th 
Conference, Madrid, May 2003.
---------------------------------------------------------------------------
    Bogota is the Capital and most important city in Colombia. It has 7 
million inhabitants, 15.2 percent of the nations total. Population 
grows 2.5 percent annually and most of its people are young adults: 62 
percent of the total are among 15 and 54 years old. The city is 8,500 
feet above sea level, in the highest plateau of the Colombian Andes. 
The city covers an area of 32,000 ha and has a high density: 210 
inhabitants per hectare. Most of its urban area is flat, with some 
informal development in the hilly areas in the southern part of the 
city.
    The most relevant characteristics of transportation in Bogota in 
1988 were: Slowness (average trip was 1 hour and 10 minutes long); 
inefficiency (routes were 30 Km on average, with buses 14 years old on 
average and 45 percent mean occupancy rate); inequity (95 percent of 
available road space used by private vehicles moving 19 percent of 
motorized trips); contaminating (70 percent of particles released to 
the atmosphere come from mobile sources; 1,200 deaths per year 
resulting from pneumonia associated with air pollution); and unsafe 
(52,764 reported accidents in 1998, resulting in 1,174 deaths).
    To initiate a structural change in transportation conditions, 
Enrique Penalosa's administration set forth an integral mobility 
strategy with actions to promote nonmotorized transportation (recovery 
and construction of public pedestrian spaces, building a 300 Km 
bikeways network); reduce automobile use (city wide vehicle restriction 
using license plate numbers in peak periods, increase in parking 
prices, Car Free Days, among others), and development of a Bus Rapid 
Transit system (TransMilenio).

                    PREPARED STATEMENT OF ANNE CANBY
            President, Surface Transportation Policy Project
                             June 24, 2003

    Mr. Chairman, I am Anne Canby, President of the Surface 
Transportation Policy Project. I am very pleased to appear today to 
present testimony on behalf of the Surface Transportation Policy 
Project on ``Bus Rapid Transit and Other Bus Service
Innovations.''
    The Surface Transportation Policy Project or STPP is a nationwide 
network of hundreds of organizations, including planners, community 
development organizations, and advocacy groups that are devoted to 
improving the Nation's transportation system.
    I am pleased to have this opportunity to discuss BRT, enhanced bus 
services, and related issues as this Committee prepares legislation to 
reauthorize TEA-21.

Overview
    First of all, I would like to recognize the Members of this 
Committee for your strong commitment to public transportation. The 
record of success shows that public transit has been a good investment. 
Clearly, the certainty of funding and the stability of the program 
structure that you provided in TEA-21 made a difference.
    The Nation has achieved transit ridership levels last seen in the 
early 1960's. Over the last several years, the growth in transit use 
has outpaced driving and air travel. We believe that we are positioned 
for even greater gains in the TEA-21 renewal period if we can ``stay 
the course'' and reaffirm the principles that made these gains 
possible.
    There is more good news about public transit and its successes 
under TEA-21. State and local elected officials, business and community 
leaders, and the public are embracing public transit in ever greater 
numbers. Virtually every public opinion survey that has been conducted 
over the last several years shows unprecedented support for increased 
transit investment and improved transit services.
    This hearing reviews what the new law can do to stimulate 
investment in Bus Rapid Transit and enhanced bus services. We encourage 
this Committee to make the necessary adjustments to current law to help 
support the broader deployment of these services, which we see as part 
of the effort to expand transit use in the United States.

Investment in BRT and Enhanced Bus Services
    Mr. Chairman, STPP would like to offer several recommendations to 
guide this Committee's work as you make adjustments in current law to 
give transit providers additional tools to support their efforts to 
provide a more robust and richer array of transit services.
    First, we recommend that the current program structure be preserved 
and that some simple adjustments to current law be made to support 
transit providers as they pursue the full range of BRT and enhanced bus 
service investments.
    Second, we recommend that the ``New Starts'' program continue to 
focus on fixed guideway projects, including BRT that meets the 
program's more rigorous standards and criteria. Clearly, this program 
is already substantially oversubscribed; the Administration's proposal 
to expand the types of projects (e.g., less than full BRT) eligible for 
New Starts funding would be counterproductive and extend further the 
already unreasonable time for new start funding.
    Third, we recommend that the current bus discretionary program be 
continued and adapted to allow for multiyear grant agreements for BRT 
projects that fail to meet the New Starts criteria, as well as for 
enhanced bus projects that meet certain threshold criteria. It is 
certain that current program eligibilities will have to be reviewed and 
may have to be adjusted. But we believe that providing for multiyear 
grant commitments in the bus discretionary program is where the 
Committee can make a real difference for transit providers that want to 
pursue these strategies.
    Fourth, we recommend that the Federal Transit Administration 
develop a process that would support its efforts to make annual 
recommendations to Congress on candidate projects within the bus 
discretionary program where multiyear grant commitments be considered.
    Fifth, we recommend that specific criteria be developed to guide 
FTA in making recommendations to Congress on potential projects that 
should receive consideration for multiyear commitments as part in annual appropriations bills. Presumably, a transit provider would have to make 
some showing or demonstration as to why a multiyear commitment is necessary. Beyond this threshold, criteria could be developed to qualify and rank projects for multiyear commitments, and these might include consideration 
of the use of alternative fueled vehicles, deployment of clean emission vehicles or new technologies, timely compliance with applicable clean air standards, extraordinary expansion of system capacity or service levels, 
role in the investment in furthering adopted land use plans and corridor redevelopment plans, enhancement of previous investments in surface transportation infrastructure (that is highway capacity and transit facilities), leverage of other public and private investment particularly transit-oriented development, or expanded evacuation capacities.
    Finally, we recommend that the level playing field within the 
transit program categories and between transit and highway capital 
projects be retained at the current 80/20 matching ratio. This is a 
core principle that was established first in 1991 with the enactment of 
ISTEA and it should be preserved.

Other Program Considerations
    Mr. Chairman, as we examine ways to promote BRT and other enhanced 
bus services, I wanted to call out some of the overriding issues that 
will challenge transit providers and their efforts to grow bus systems 
and services over the next renewal period.
    First, continuation of the guaranteed funding features of TEA-21 is 
absolutely crucial to sustained investment in public transit 
infrastructure and services. The dominant theme of all of the hearings 
on TEA-21 has been that guaranteed funding was the single most 
important policy change from ISTEA to TEA-21, underpinning the success 
of the last 6 years.
    STPP along with many of our partners and others have been concerned 
with proposals that threaten the strong commitments made in TEA-21. The 
Administration's SAFETEA plan leaves a portion of the transit program 
outside the budgetary firewalls and spending guarantees, targeting 
``New Starts'' funding, the one program area where certainty is most 
crucial. This program supports what are often the largest and most 
significant capital projects undertaken by transit providers. And it 
has been the New Starts program, as well as rail transit use overall 
that have been driving the growth in transit ridership over the last 
several years.
    We are particularly alarmed about proposals in Congress that 
threaten to destabilize future Federal commitments to public transit, 
by eliminating a substantial portion of the dedicated fuel taxes to the 
Mass Transit Account and replacing these certain revenues with the 
uncertain proceeds of a new Federal bonding program.
    Mr. Chairman, STPP and its many partner organizations strongly 
oppose this proposal for funding future transit investment in this 
manner, and we applaud your leadership and others on this Committee for 
stepping forward to oppose this approach. This proposal simply ignores 
what we have learned about the role of certain funding in further 
enhancing our Nation's surface transportation systems.
    Second, system ownership influences choices and the allocation of 
transportation resources, and these considerations are particularly 
important to this Committee's review of BRT and enhanced bus services. 
What makes nonfixed guideway BRT systems and enhanced bus services appear so much more economical and affordable is the fact that these projects are tapping the value of existing highway and road networks that in almost all cases are owned and managed by agencies other than the transit provider. Getting the incentives and eligibilities right within the FTA programs is 
only one part of the equation. The other part of the equation is how to get the facility owners engaged in helping make these projects happen.
    Transit providers, which are overwhelmingly regional agencies, must 
partner with State transportation departments, county and city 
governments (i.e., the owners and operators of the Nation's road and 
street networks) to get the improvements that will be needed to make 
these new services possible. BRT and other enhanced bus projects rely 
on technological changes in traffic signalization and other operational 
changes and most likely some reengineering of the facilities, which are 
likely to be freeways or principal arterials. While separate guideway 
systems are expensive, leading to growing interest in some of the 
approaches being discussed here today, one must recognize that lesser 
BRT and enhanced bus projects will rely on facilities that are part of 
the National Highway System and more often part of the Federal-aid 
system. There are real challenges here that should be considered.
    How highway dollars are allocated within the States is another 
important policy consideration. Under TEA-21, almost all highway funds 
are distributed to the States regardless of how much of the highway and 
street networks they own and operate, with about 6 cents of every State 
dollar reserved for local decisionmakers in the larger urbanized areas 
(i.e., areas of 200,000 or more in population). As local areas look for 
resources to provide safer access to transit facilities for pedestrians 
and bicyclists, make other road improvements to support BRT or enhanced 
bus services, or use the Act's flexibility to move TEA-21 highway 
dollars directly into transit projects, the record shows us that most 
Federal highway funds rarely reach local decisionmakers to make these 
choices.
    This has led STPP to call for an increase in the allocation of 
Federal highway dollars to local officials in their Metropolitan 
Planning Organizations (MPO's), raising direct commitments to local 
decisionmakers beyond the 6 cents on every dollar that current law now 
provides. In this way, we can better align land use powers and facility 
ownership with resources, key ingredients to making progress with these 
approaches. While this issue is squarely before the Senate Environment 
and Public Works Committee, it is an important consideration in moving 
forward on the issues being discussed here today.
    Finally, stimulating private sector engagement is an important 
consideration in making BRT and enhanced bus services more viable. One 
of the most important developments in public transportation is the 
changing attitudes of the private sector about the value of transit 
services and how the availability of broader mobility choices for 
people and businesses is reshaping development markets all across the 
country. Investors and developers are beginning to rediscover the many 
market opportunities that exist in places with substantial transit 
investments, most often seen in places with heavy and light rail 
systems.
    We do not yet have enough experience with the BRT and enhanced bus 
services to know what is needed to motivate private sector investment. 
We do know that the appeal of these rail transit systems is their 
permanence and accompanying expectations that services will be high 
quality and enduring. The record on nonfixed guideway systems, 
including enhanced bus, is less conclusive. Examples outside the United 
States are not readily transferable here, given the externalities that 
exist elsewhere (e.g., housing policies, high gas prices, lower car 
ownership, history of transit use, and more centralized government 
planning, etc.). This is the right time to be seeking to expand the BRT 
and enhanced bus services as developers and investors increasingly look 
to locations with mobility options beyond simply private automobiles.
    This is one area where this Committee can look for additional ways 
to accelerate private sector engagement in TOD and transit more 
broadly. This Committee shapes housing policy, community and 
neighborhood development programs and financing tools, certain banking 
functions, including CRA requirements, and the like. We certainly 
believe that some of these tools should be examined and adjusted to 
help stimulate more investment in and around transit services, be it 
rail transit, BRT or corridors served by enhanced bus services.

Transit Investment and Land Use and Development
    Mr. Chairman, among the issues before this Committee is an 
examination of how transit investments can contribute to land use and 
community development. We do not yet have enough information to assess 
how nonfixed guideway BRT and enhanced bus services can influence these 
issues. However, I did want to cite several examples from this 
Committee's hearing record on how transit investment can influence 
these outcomes, noting particularly rail transit projects which have 
recently opened or where new projects are under development.
    Last year in hearings before the Subcommittee on Housing and 
Transportation, Dallas County, TX, Commissioner Kenneth Mayfield 
recounted the many economic development benefits from his region's 
light rail system, citing the many millions of dollars in private 
investment that was stimulated by the opening and subsequent expansion 
of the DART system. A recent study looked at valuations and the 
economic impact on properties of proximity to DART stations. ``Between 
1997 and 2001, the mean value of 47 office properties near DART 
increased 24.7 percent, compared with an average increase of 11.5 
percent for properties not near the stations, giving the DART office 
buildings a 53 percent advantage.'' (Bernard Weinstein and Terry 
Clower, ``DART Light Rail's Effect on Taxable Property Valuations and 
Transit-Oriented Development, Denton, TX: University of North Texas Center 
for Economic Development and Research, January 2003, at http://www.dart.org)
    In Hank Dittmar's testimony before the Subcommittee on Housing and 
Transportation last year, he cited a recent study by the University of 
North Texas found that the new DART system in the Dallas region has 
already generated over $800 million in development, and that the full 
system is projected to generate $3.7 billion in economic activity upon 
build out. (University of North Texas, 2000)
    Charlotte Mayor Patrick McCrory has talked about the economic 
impact that his region's proposed rail plan was already having on the 
city along the planned corridors to be served by rail transit, 
trolleys, and BRT service. Thousands of downtown housing units are 
under construction or have been constructed in anticipation of the 
area's transit investment, as well as the reuse of many abandoned 
brown-fields and underutilized land and buildings, particularly those along 
the route of what will be a restored streetcar line.
    What is particularly so powerful about the Charlotte example is 
that the local elected officials working in a regional context have interlocked their land use and development planning with their long-term transit plan. Over a 25-year period, the transit plan calls for 23 miles of BRT busways, 21 miles of light rail service, 11 miles of streetcar service, 
29 miles of commuter rail service, 60-70 stations with transit oriented 
development opportunities, and a 520-bus fleet to provide rapid transit 
service throughout the metro area. A strong commitment to planning and 
land use, while key elements of their initial success, is further 
supported by the region's rapid growth and strong backing from its 
substantial banking and financial community that understands the value 
of the transit investments that are being made.
    Looking to an example of an earlier transit investment, Mr. Dittmar 
also talked about the Washington, DC area and discussed a case study 
that he was compiling on Arlington County and development activity 
along the Roslyn-Ballston Corridor. ``Development along this corridor 
has allowed Arlington County to capture over 13 million square feet of 
office space and 2 million square feet of retail since 1980. The 
corridor has increased in population from 19,838 in 1980 to 34,485 in 
2000, reversing a steep population decline in the 1970's. Land value 
within the corridor near the four stations increased by 81 percent from 
1992-20002, an average annual increase of 6.1 percent, generating over 
$109 million in property taxes in 2002 alone. The corridor generates 
approximately 33 percent of the County's real estate tax on 7.7 percent 
of the County's land. According to the study, ``Even with the economic 
downturn and the residual affects of the 9/11 incident (which affected 
Arlington directly through the bombing of the Pentagon and the 
subsequent shut down of National Airport and several major arterials), 
February 2002 vacancy rates were at 10 percent. This is half of the 
vacancy rate of suburban office concentrations in outlying Virginia 
such as Tyson's Corner and Reston. The office rents in the Roslyn-
Ballston Corridor also command a rent premium over other office 
locations in the Northern Virginia marketplace.'' (TransManagement, 
Inc. for Great American Station Foundation, forthcoming)

Closing Comments
    Mr. Chairman, I want to close my comments by recognizing the 
considerable progress that has been made in increasing the use of 
public transit through the Nation and again commend this Committee for 
their strong support of these efforts.
    Much of the success that public transit has enjoyed over the last 
several years is a result of the leadership that this Committee has 
provided on these issues. The hearing today and the focus on policies 
that will help promote the increased use of BRT and enhanced bus 
services will help ensure that we continue to expand on the successes 
that the continuing Federal commitments have helped support.
    Thank you for the opportunity to appear before you today.

       RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES 
                      FROM JAYETTA HECKER

Q.1. In your comparison of capital costs for light rail and 
BRT, did you spread those costs over the useful life of the 
assets? Since the useful life of light rail and BRT assets 
differs, would not an appropriate comparison require life-cycle 
costs to be considered?

A.1. Our analysis was not a life-cycle cost projection. Life-
cycle cost analyses require detailed data on the individual 
elements of a project and assumptions regarding their use. The 
data we were able to obtain did not have the necessary level of 
detail, and assumptions regarding the lifetime use of the 
assets would have added a level of uncertainty to the analysis. 
Instead, we chose to determine the actual cost to complete 
projects. Also, we do not believe that life-cycle cost analysis 
would change our overall conclusion that Bus Rapid Transit 
generally had lower capital, costs, given the magnitude of the 
cost differences between Bus Rapid Transit systems and light 
rail systems.
    In our September 2001 report, we present information 
describing the capital cost to complete 41 light rail and Bus 
Rapid Transit projects opened since 1980. To determine the 
capital costs, we obtained cost data from the FTA and transit 
agencies for selected cities. For Bus Rapid Transit systems, we 
identified 20 existing Bus Rapid Transit systems or operated 
dedicated busways in 10 cities. For Light Rail, we identified 
21 systems in 13 cities that were built between 1980 and 2000. 
We limited systems to this timeframe due to the concerns about 
the availability of data from earlier dates. To obtain capital 
costs for the Bus Rapid Transit systems, we used prior reports, 
if available, or contacted the local transit agency. For the 
light rail projects, FTA and transit agency officials provided 
total capital costs. We then escalated the capital costs to 
2000 dollars to provide a more accurate basis of comparison. To 
escalate the costs, we used the Gross Domestic Product Implicit 
Price Deflator applied to lump-sum capital cost at the year of 
completion. The only exception to this method was for the San 
Diego Light Rail system. Due to the way in which this system 
was built over time, the transit agency provide us annual 
capital expenditures, and we escalated each of these to 2000 
dollars to determine the capital cost of this system.
    While life-cycle cost projections are a valuable tool in 
helping to decide which type of project to pursue or in helping 
to choose a particular type of assets to purchase, we did not 
perform such an analysis for the 41 systems. To do so, we would 
have needed to obtain itemized information on all assets of the 
systems that were built and their expected life. Assumptions 
would have been required about the life of each asset, which in 
turn could be dependent on many factors, including the 
particular asset purchased, the expected maintenance that would 
be performed to extend its life, and the expected use of the 
asset. We decided that it was better to present the actual 
costs incurred to complete the transit projects. In addition, 
we did not do life-cycle cost projections because sufficiently 
detailed information was not likely to be available for many 
systems. Without the necessary level of detail, the life-cycle 
costing could not be done. We had difficulty obtaining actual 
total cost expended for projects and to have required that localities 
provide a breakdown of the actual cost of each asset would 
likely have resulted in dropping many cases from the analysis, 
severely limiting our study.
    However, given the magnitude of the difference in the 
actual costs to construct light rail and various Bus Rapid 
Transit alternatives, we do not believe a life-cycle cost 
analysis would change our overall conclusion that the capital 
costs for Bus Rapid Transit are lower than for light rail. At 
the ``low'' end, in our review Bus Rapid Transit on arterial 
streets had a cost (in 2000 dollars) of about $680,000 per 
mile, while light rail cost was about $34.8 million per mile. 
Thus, the cost per mile of Light Rail was over 50 times greater 
than the cost per mile of this type of Bus Rapid Transit. We 
believe this is too large a difference for life-cycle cost 
factors to reverse. In addition, higher cost Bus Rapid Transit 
systems such as busways, which averaged about $13.5 million per 
mile in our study, also contain many long-lived high-cost 
elements such as dedicated right-of-way, stations, bridges, and 
tunnels. We would expect such bus facilities to have useful 
lives similar to light rail right-of-way, stations, bridges, 
and tunnels. The useful life of these facilities would have to 
be less than half that of light rail facilities to overcome the 
initial capital cost advantage of busways. In addition, the 
capital cost of a project includes many one-time cost elements 
such as environmental clearances or ``soft costs'' such as 
design and engineering, project management and oversight, and 
debt financing. It is not apparent how these elements could 
favor either light rail or busway alternatives in a life-cycle 
analysis. Vehicle costs are an area where light rail could have 
a life-cycle cost advantage over bus-based systems. Rail 
vehicles have a longer useful life than buses. As we noted in 
our September 2001 report, light rail vehicles cost about $2.5 
million, while bus costs varied between $283,000 and $1.5 
million at that time, depending on the bus size and technology. 
Depending on the number and type of buses needed, and their 
specific useful life, the overall life-cycle costs of the bus 
system could rise, relative to light rail. However, vehicle 
costs may only be a relatively small portion of the overall 
cost of a major transit project. For example, a 1995 study 
performed for FTA estimated the proportion, or ``weight'' of 
vehicle costs for light rail projects to be about 14 percent of 
total capital costs.

Q.2.a. Your testimony notes that Los Angeles and Houston both 
had exclusive bus lanes at one time, which were later converted 
into HOV lanes. Why was that done?

A.2.a. The El Monte (I-10) busway in Los Angeles was opened for 
bus-only use in January 1973. Under the original agreement 
between the Los Angeles County Metropolitan Transportation 
Authority and Caltrans, a 5-year experimental period was 
established. During the first 2-year phase the facility was to 
operate as an exclusive busway; in the next 3-year phase the 
facility was to operate with mixed bus and carpool use for at 
least one year. In August 1974, it was temporarily opened to 
three-person carpools and vanpools in response to a Southern 
California Rapid Transit District strike. It returned to bus-
only operations in October 1974, when the strike was settled. 
According to an FTA study by the Texas Transportation 
Institute, by 1976, the busway was carrying about 3,000 
passengers on 64 buses during its peak hour of operation. That 
same year the busway was again opened to mixed-mode operations, 
allowing 3 or more passenger carpools. In 1999, the California 
Legislature lowered the vehicle-occupancy requirement from 3 or 
more passengers to 2 or more, mandating a demonstration period 
from January 1, 2000 to June 30, 2001. Following the initial 
results of the demonstration, new legislation moved the vehicle 
passenger requirement back to 3 or more passengers during the 
morning and afternoon peaks and maintained 2 or more passengers 
at other times, effective July 24, 2000.
    The Houston I-10W Katy bus transitway, which opened in 
1984, is available and was originally restricted to bus and 
authorized van pools. According to a 1995 study for FTA, after 
6 months in the Katy transitway's first year of use, 271 
vehicles per day used the facility--101 buses and 170 vanpools 
carrying a total of 5,046 passengers. Even though the vehicles 
carried more people than any of the adjacent passenger lanes, 
the transit way looked empty and appeared underutilized at the 
end of the first year. According to the FTA study, motorists in 
the congested adjacent lanes demanded access to the bus transitway. 
Initially, the transitway opened the lane to carpools with 4 or more passengers, but according to the study, only six such carpools used the facility during the average morning peak period. In 1985, carpools 
with 3 or more passengers were allowed to use the lanes. Later, because 
of the continuing perception that the lane was underutilized, 
the lanes were opened to all carpools with 2 or more passengers 
in 1987.

Q.2.b. Were there any follow-up studies done to determine the 
impact on the bus service of allowing private automobiles to 
use the bus lanes?

A.2.b. According to a 2002 FTA sponsored Texas Transportation 
Institute study, changing the HOV requirements on Los Angeles' 
El Monte (I-10) busway had significant negative impacts on bus 
service. For example, temporarily changing the HOV lane 
requirement from 3 to 2 or more passengers in 2000 lengthened 
the peak hour travel times from 20 to 30 minutes, and reduced 
operating speeds on the busway as much as from 65 mph to 20 mph. 
Hourly busway vehicle volumes during the morning peak hours rose 
from about 1,100 to 1,600, but the number of persons carried 
declined from about 5,900 to 5,200. Bus schedule adherence and 
on-time performance also declined significantly as a result of 
lower operating speeds. However, the study does not cite 
negative effects from the initial change from exclusive busway 
to mixed bus and 3 passenger HOV use.
    According to a 1995 study for the FTA, opening Houston's 
Katy bus transitway to 2 or more person vehicles in May 1986 
dramatically increased the number of vehicles using the lanes 
during the morning peak hours. Under a 3 person HOV 
requirement, the transitway on average carried 148 vehicles per 
hour (35 buses, 41 van-pools, and 72 carpools); when the 2 
person requirement was instituted, about 1,450 vehicles per 
hour used the transitway. The
increase in usage during the morning rush hour caused average 
transit speeds to decline from 55 mph to 45 mph or below.

Q.2.c. If Federal funds are used to invest in those lanes, what 
guarantee do we have that those lanes will not be converted 
later into general traffic lanes, potentially undermining the 
purpose for which the Federal investment was made?

A.2.c. Conversion of HOV lanes built with Federal funds to 
general-purpose lanes may or may not be prohibited, depending 
on the circumstances; however Federal reviews and approvals 
would have to occur before such a conversion may take place.
    The FTA does not have published guidance on the conversion 
of bus lanes to different operational uses. However, according 
to the FTA officials, for FTA New Starts projects limitations 
on changes should be covered in the full funding grant 
agreement. The grant agreement specifies what changes, if any, 
may be made without FTA approval. This would apply not only to 
conversion of bus lanes to general-purpose lanes, but also 
conversion of bus lanes to HOV or High Occupancy Toll (HOT) 
lanes. FTA would consider the potential negative impact on 
transit operations of any change in the
status of a FTA-funded facility. In addition, FTA would need to 
ensure that changes in the use of the lanes were consistent 
with the local long-range plans developed by the local 
Metropolitan Planning Organization.
    If Federal-aid Highway funds are used to fund to 
construction of HOV lanes, Federal Highway Administration 
guidance applies. This guidance states that in accepting 
Federal-aid funds, agencies agree to manage, operate, and 
maintain HOV lanes as they were originally planned, designed, 
constructed, and approved. A proposal to convert an HOV lane to 
a general-purpose lane is considered a significant operational 
change requiring a further Federal review. This review is 
needed to assure consistency with the existing law,
including commitments made as a result of the National 
Environmental Policy Act (NEPA), planning requirements and 
transportation conformity requirements under the Clean Air Act, 
and commitments in project agreements.

       RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES 
                      FROM KENNETH P. HAMM

Q.1. Mr. Hamm, you state in your testimony that you would like 
to see a ``simpler process than currently exists for New 
Starts.'' What do you see as the major complications involved 
in the current process? Do you have any suggestions for how to 
achieve a simpler process?

A.1. Lane Transit District has not been through the New Starts 
process and therefore may not be in the best position to 
describe how it could be modified. However, staff have 
participated in the
numerous Federal Transit Administration (FTA) New Starts 
trainings, and believe that the New Starts criteria must be 
modified (made simpler) for Small Starts projects.

New Starts Criteria

<bullet> The incremental cost per new rider could be based on 
    the project's No-Build Alternative--not a transportation 
    system man-
    agement or Baseline alternative, typically used for New 
    Starts projects.
<bullet> The land use narrative would not need quantitative 
    land use data. A descriptive narrative addressing the links 
    between existing land use and development and the proposed 
    project would be sufficient.
<bullet> The Small Starts projects would be exempt from the 
    transporta-
    tion and transit User Benefit measures.
<bullet> Small Starts projects would be exempt from the FTA 
    Summit reporting requirements.

    The source at information for the Small Starts report would 
be the project's environmental impact statement or 
environmental assessment. FTA would continue to rate projects 
using the modified criteria. Certification of assumptions and 
methods would be conducted through a self-certification and 
local peer review process (see the project management oversight 
function described below).
    The rating process would be conducted at only one point in 
time (instead of three): When the project seeks approval to 
advance from preliminary engineering into final design and 
construction. The absence of other New Starts criteria, 
measures, and ratings could not be used by the FTA to assign a 
lower rating to the project; deny a project's advancement into 
subsequent phases of development, except as provided in the 
proposal; exclude the project from the Administration's 
proposed annual budget; or exclude a project from consideration 
of a full-funding grant agreement.

Project Management Oversight

    The project management oversight (PMO) requirements were 
implemented by Congress and FTA to ensure that Federal funds 
are used appropriately by the project sponsor. The following 
proposal would provide for a streamlined program designed to 
meet those same objectives, but utilizing a self-certification 
and peer review process with a limited number of reporting 
points.

<bullet> Small Starts projects should be required to implement 
    a project management oversight process that is based on 
    self-certification and a locally-implemented peer review 
    process. The peer review process would be initiated at the 
    start of preliminary engineering, with reports made to FTA 
    at the conclusion of preliminary engineering, final design, 
    and construction. The reports would address the financial 
    capacity and technical capability of the project sponsor to 
    undertake the project's next phase of development similar 
    to the existing PMO process. The peer review panel would 
    meet to consider and comment on the project management 
    reports prepared by the project sponsor and the panel would 
    forward its comments on the report to FTA. The specific 
    issues to be addressed in the project management reports 
    would be agreed upon between the project sponsor and the 
    peer review panel at the start of preliminary engineering. 
    The peer review panel would be supported by an independent 
    staff consultant.

    Alternately, FTA could contract with a project management 
oversight consultant during final design and construction, 
which would be in addition to the peer review process outlined 
in the preferred proposal. Reporting and meeting requirements 
would focus primarily on the reports and meetings prepared and 
conducted through the peer review process. The consultant would 
prepare independent reports to FTA in tandem with the reports 
prepared by the project sponsor and the peer review panel.

General Performance and Results Act of 1993

    The Federal Transit Administration has interpreted the GPRA 
to require a Before and After Study, requiring extensive data 
collection. Ideally, a Small Starts project could be exempt 
from the GPRA and thus exempt from the FTA requirement for 
Before and After Studies. Alternately, a Small Starts project 
could be required to prepare a report at the conclusion of 
construction that would address differences and similarities 
between the project that emerged from final design and the 
project that actually was constructed, including compliance 
with the project's budget. The report would be included within 
the peer review process (and could be reviewed and commented on 
by the PMO consultant) and would replace the Before and After 
Study requirement.

       RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES 
                    FROM OSCAR EDMUNDO DIAZ

Q.1. Mr. Diaz, thank you very much for your testimony regarding 
the TransMilenio system operating in Bogota, which sounds like 
an extraordinary success. In your statement, you mentioned that 
the investment cost for the TransMilenio Bus Rapid Transit 
system was $5 million per kilometer, excluding vehicle 
acquisition costs. When these costs are taken into 
consideration, what was the total initial investment per 
kilometer? Also, in developing your project cost comparison, 
did you take into account any possible socio-economic factors 
that may differ between the United States and Colombia, such 
labor rates, private automobile ownership, environmental 
regulations, land acquisition costs, or other factor?

A.1. Senator Sarbanes, regarding your first question, the cost 
of the TransMilenio system per kilometer was $5 million. This 
amount does not include vehicle acquisition since the buses 
were bought by private operators. TransMilenio is a public-
private partnership. TransMilenio S.A., the local municipal 
agency manages bidding processes and controls the system 
operation. Private contractors who operate the buses share in 
the system's income per bus-kilometer. A separate private 
contractor is in charge of ticketing and money collection, 
while another private company is responsible for distributing 
the revenues to all contractors and the municipal agency.
    However, we have made some calculations for each $2 there 
is $1 investment from the private sector, that includes, 
vehicle acquisitions--trunk line articulated buses and feeder 
buses, workshops, equipment, and ticketing. So, that, the total 
cost would be $7.5 million per kilometer, $5 million public and 
$2.5 private.
    Regarding the second question, yes, we took into account 
socio-economic factors to develop TransMilenio. The old system 
was chaotic and drivers worked for more than 14 hours a day 
without health insurance or a pension plan. In TransMilenio 
drivers work 8 hours a day and have health insurance and the 
normal compensations. This gave them dignity and changes the 
way they respond to their job.
    There is no doubt that in the United States' cities, car 
ownership is higher than in any other Latin American city. 
However, as we have fewer cars, we have much less car 
infrastructure than U.S. cities. Then the excessive number of 
cars is also a problem in Bogota. The situation we found was 
basically to choose between building more infrastructure for 
cars and solve their traffic jams or invest in a new public 
transport system for the majority and also to attract car 
owners. As mentioned in my testimony, 11 percent of current 
TransMilenio riders are car owners, it seems to be low, but 
this is only with the first 40 kilometers of a total of 388. 
But to reduce car usage TransMilenio is not enough. We 
implemented several other measures to this purpose such as Pico 
y Placa, non-motorized transport infrastructure, increase on 
gasoline tax, car free days, and a referendum.
    Pico y Placa is a license-plate-number-based system in 
which 40 percent of all cars in Bogota are off the streets 
during 2 peak hours in the morning (7:00-9:00) and 2 peak hours 
in the afternoon (5:30-7:30). Each car has this peak hour 
restriction twice a week. The scheme reduced trip times by 
about 29 minutes and lowered pollution levels. Gas consumption 
went down 10 percent. Other cities have implemented full day 
tag-number-based restrictions without much success. For one, a 
whole day restriction is so severe, that many who definitely 
need to use a car find ways to get special permits. And of 
course once a special permit is issued, many want to get one as 
well. And soon after half the population has one. Another 
problem with whole day restrictions is that many people buy an 
additional car making things even worse. The Bogota restriction 
is less severe and more effective. Some people leave the car 
home, which is the socially desirable behavior. Others simply 
go to work earlier or later than usual and thus road space is 
more evenly allocated. This restriction functions well and has 
a higher than 90 percent popular support.
    In Bogota, we developed a large bicycle-path network and 
set in the planning bylaws that future roads must include 
bicycle-paths alongside them. In Bogota, bicycle paths are 
physically isolated from motor-vehicle traffic. More than 300 
kilometers of bicycle ways were built in 3 years. People riding 
to work increased from 0.3 percent to 4.4 percent of 
population.
    A local tax on gasoline was increased to 25 percent, of 
which 15 percentage points go to TransMilenio infrastructure, 
support the system's further expansion.
    Bogota also has a car free day at least once a year since 
2000. Differently from car free days elsewhere, it is held on a 
weekday and covers the whole city and not just a few arteries 
or sectors. During 13 hours all citizens (8 million) meet as 
equals in public transport, bicycles, or walking. In a 
referendum held afterwards, in October 2000, nearly 64 percent 
of voters approved establishing a car free day the first 
Thursday of February every year. In the same referendum the 
people of Bogota voted positively to get all cars off the 
streets every weekday between 6 a.m. and 9 a.m. and between 
4:30 p.m. and 7:30 p.m. from January 2015 onwards. This is a 
powerful resolution. It was decided to implement the measure 
only in 2015 in order to allow time to put in place a quality 
public transport. But only another Referendum could change the 
decision of the people of Bogota.
    The buses use clean diesel EURO II technology. In the 
corridors where TransMilenio runs there has been an important 
reduction in the daily averages of some pollutant levels, such 
as SO2, NO2, and PM-10.
    In order to build some of the corridors, workshops, 
stations, and pedestrian bridges, in some areas it was 
necessary to buy land around the system. In some cases the city 
had to use the eminent domain in order to acquire the land for 
the benefit of the majority. This measure has been applied all 
over the world to build car infrastructure, then why not use it 
to build a public mass transportation system?

       RESPONSE TO WRITTEN QUESTIONS OF SENATOR SARBANES 
                        FROM ANNE CANBY

Q.1. Do you believe that fixed guideway investments, whether 
rail or BRT, may have an advantage over nonfixed guideway 
investments in helping communities restrain urban sprawl by 
focusing development around transit stations? As you understand 
it, does the FTA's New Starts rating process fully capture this 
long-term economic development potential when evaluating the 
costs and benefits of a proposed system? If not, and if 
nonfixed guideways were allowed to compete for New Starts 
funding, might this create a potential bias toward nonfixed 
guideway investments by undervaluing the benefits from a fixed 
guideway alternative?

A.1. Fixed guideway investments are much more attractive for 
real estate development than nonfixed-route transit. Much of 
the economic development that happens around a transit stop 
depends on the station being a long-term installation. A 
transit-oriented developer depends on the certainty provided by 
the permanence of fixed guideway (similar to a road) and 
factors the increase in market value associated with greater 
mobility and mode choice into project feasibility calculations. 
The risks posed by bus service operating on the local street 
network that could be terminated at any point or relocated to 
another corridor are far less attractive to a developer than a 
fixed guideway investment.
    The current New Starts rating process as specified by the 
FTA does not quantify the extent to which economic development 
will be spurred through the transit project. In the crucial 
numerical benefit measurements--the capital and operating 
funding plans and the cost-effectiveness rating of different 
alternatives--economic development is not included. It is 
included as a qualitative consideration, but will not count as 
one of the fiscal benefits.
    Although FTA does not rate projects purely according to the 
numerical benefit calculations, the agency has expressed the 
fact that many participants in the process understand the cost-
effectiveness rating to be a make-or-break factor.

        . . . FTA is aware that the cost-effectiveness measure 
        is often interpreted by project sponsors, State and 
        local decisionmakers, and even elsewhere within the 
        Executive and Legislative branches of the Federal 
        Government as ``the'' measure that will ``make or 
        break'' a proposed new start. (p. 76873, 65 FR no. 236)

    This means that the project justification rating, one of 
two that factor into the final rating, is significantly biased 
by the cost-effectiveness figure, a number that excludes 
consideration of economic development benefits. This seems to 
miss one of the main attributes for fixed guideway New Starts.
    We strongly recommend to the Committee that some fixed 
guideway criteria be retained in the eligibility for New Starts 
funds, and that this criteria be further defined for BRT 
projects so that at least 60 percent of the route must be fixed 
in order for a bus improvement to qualify as a Bus Rapid 
Transit project.

Q.2. In your testimony, you suggest that in order to encourage 
development of BRT projects, no major structural changes are 
needed in the current Federal programs, but that ``some simple 
adjustments'' could be made to current law. What kind of 
adjustments did you have in mind?

A.2. We recommend to the Committee that fixed-route BRT be 
allowed under the New Starts criteria. However, nonfixed-route
BRT with less than a certain share of fixed route should also 
be eligible for multiyear commitments. The projects which fall 
into this latter category could be funded through an expanded 
bus discretionary program and it can be made clear that the 
roadway improvements for both fixed guideway, as well as 
nonfixed guideway BRT projects are eligible under the National 
Highway System (when on or parallel to a NHS designated route) 
and the Surface Transportation Program.
    The certainty provided by full funding grant agreements is 
as important to nonfixed guideway projects as it is to a new 
start. Therefore, allowing projects that exceed a certain cost 
threshold to obtain a Full Funding Grant Agreement (FFGA) 
represents an important tool in enabling these investments to 
advance. The current 20 percent of capital improvements funds 
set aside for the ``bus discretionary'' program (Title 49, 
Chapter 53, Sec. 5309(m)(1)(C) and Sec. 5309(m)(3)) could have 
the same eligibility for FFGA's, which enables multi-year 
commitments of Federal funds.
    Because many of these projects will involve improvements to 
roadway open to other users, proposals that include funding 
from FHWA programs (such as the Surface Transportation Program 
and the National Highway System program) should be given 
priority over projects funded only through the bus 
discretionary program.

                            TESTIMONY OF THE
                 ROARING FORK TRANSPORTATION AUTHORITY
                             June 24, 2003

    The Roaring Fork Transportation Authority (RFTA) is Colorado's 
first rural transit authority, serving a 70-mile, three-county region 
(Garfield, Eagle, and Pitkin Counties) in Western Colorado. This 
project is increasingly being viewed as a model for future projects in 
other rural areas of the country confronted with rapid growth and 
increasing congestion.
    In November 2000, this region created Colorado's first rural 
transportation authority through the simultaneous passage of formation 
and funding votes in seven different jurisdictions. This shows the 
enormous support the region has for transit, and has led to the 
project's success to date. The system is now the second largest transit 
system in Colorado, with ridership more than two times the per capita 
rate of Denver RTD.
    This proposed Bus Rapid Transit system includes transit stations in 
each community, Intelligent Transportation System components, queue 
bypass lanes, an efficient alternative fuel vehicle fleet, Super 
Express service, an automated fare collection system, and a variety of 
other characteristics, making Bus Rapid Transit comparable to rail in 
terms of convenience, comfort, and travel-time savings at one-third the 
capital cost.
    Moreover, this project has been rated as the top new project in the 
Colorado Department of Transportation's (CDOT) Intermountain Planning 
Region 2003 Strategic Investment Plan. In addition, the project is 
critical in meeting the transportation infrastructure needs of the 
region and extending the life of the existing CDOT and Federal 
investment in the region's highway system.
    This project also shows how transit can provide enhanced access to 
the country's national forests and public lands. The project corridor 
includes Federal land managed by the U.S. Forest Service and the Bureau 
of Land Management and provides access to significant Federal and State 
holdings, including the White River National Forest, the Maroon Bells/
Snowmass, Hunter/Frying Pan, and Holy Cross Wilderness areas, numerous 
Bureau of Land Management parcels, three Colorado Wildlife Management 
Units, and the Roaring Fork and Frying Pan Rivers, which are both 
Colorado Gold Medal fisheries.
    The total cost of the project is $128 million. The project is 
currently authorized as part of TEA-21 and we are seeking authorization 
of the project in the TEA-21 reauthorization bill. We plan to request a 
total of $64 million in Federal funds to complete this project, which 
represents a 50 percent Federal match. Federal funds are being 
requested for the 40-mile stretch of Colorado State Highway 82, from 
West Glenwood Springs to Aspen. Federal funding is not being sought for 
improvements to the entrance to Aspen. The balance of funding would be 
covered by the State and localities, leveraging a variety of private 
and public funding sources.
    The RFTA BRT project faces several unique challenges. First, it is 
one of the only New Starts projects in the Nation being pursued in a 
rural area. While the region is rural in population, due to linear 
growth and development the region experiences urban congestion. In 
addition, because we do not have a Metropolitan Planning Organization 
(MPO), it has become more difficult to fully meet the New Starts 
criteria and proceed through the FTA's New Starts process, which is 
designed for large urban areas with significantly sized and 
professionally staffed MPO's. Moreover, the current regulatory 
definition of Bus Rapid Transit confines projects to an urban area. 
Second, this project is located in a uniquely pristine geographic area 
in a narrow canyon, bordered by mountains, a river, and significant 
amounts of Federal land. Third, it is located in an area with a region-
wide lack of affordable housing, causing many who work and live in this 
area to commute as much as 70 miles to their place of employment. 
Fourth, while most New Starts projects are in urban corridors not 
exceeding 20 miles, our project extends along a 70-mile corridor. We 
often say that we are ``a rural area with urban problems.'' Because of 
these unique characteristics, we need the FTA's New Starts criteria and 
process to be flexible enough to accommodate this worthy project with 
significant local, State, and Congressional support.
    The RFTA welcomes SAFETEA's creation of a ``Small Starts'' program 
to fund New Starts projects under $75 milllion. We welcome a 
streamlined process and application of reduced project justification 
criteria when appropriate and necessary for smaller projects such as 
ours which are not seeking large amounts of Federal funding. However, 
SAFETEA does not delineate how the criteria would be applied. We would 
welcome Congressional direction on the application of this program so 
that properties can have planning clarity and successfully navigate the 
New Starts process. We also welcome SAFETEA's inclusion of nonfixed 
guideway improvements in corridors to encourage consideration of BRT 
options. A portion, but not all, of the RFTA BRT project is planned for 
HOV lanes, but the majority of the project will occur in mixed traffic 
with queue bypass lanes, priority traffic signalization, and other BRT 
features reflecting a substantial investment in the corridor. We urge 
the Committee to specifically consider enacting unique criteria 
applicable to New Starts projects in rural areas to help resolve 
current inconsistencies in the program.
    Thank you for the opportunity to testify before the Committee. We 
look forward to working with you as you craft the reauthorization of 
TEA-21 to ensure that projects like ours are afforded a real 
opportunity to achieve Federal support and successfully navigate the 
New Starts process.

</pre></body></html>
